<html>
<title> - DOING TIME: ARE DC PRISONERS BEING ADEQUATELY PREPARED FOR REENTRY WITH EQUAL ACCESS TO BOP SERVICES?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
DOING TIME: ARE DC PRISONERS BEING ADEQUATELY PREPARED FOR REENTRY WITH 
                     EQUAL ACCESS TO BOP SERVICES? 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 16, 2007

                               __________

                           Serial No. 110-201

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

52-018 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

                        DANNY K. DAVIS, Illinois
ELEANOR HOLMES NORTON, District of   KENNY MARCHANT, Texas
    Columbia                         JOHN M. McHUGH, New York
JOHN P. SARBANES, Maryland           JOHN L. MICA, Florida
ELIJAH E. CUMMINGS, Maryland         DARRELL E. ISSA, California
DENNIS J. KUCINICH, Ohio, Chairman   JIM JORDAN, Ohio
WM. LACY CLAY, Missouri
STEPHEN F. LYNCH, Massachusetts
                      Tania Shand, Staff Director



























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 16, 2007.................................     1
Statement of:
    Barnes, Kevin, previously incarcerated, Rivers Correctional 
      Institution................................................    10
    Lappin, Harley G., Director, Federal Bureau of Prisons; and 
      George E. Snyder, warden, Rivers Correctional Institution..    18
        Lappin, Harley G.........................................    18
        Snyder, George E.........................................    31
    Quander, Paul A., Jr., Director, Court Services and Offender 
      Supervision Agency; Stanley Jackson, acting president, 
      University of District of Columbia; Charles Jones, 
      director, Employment Services, D.C. Department of 
      Employment Services; Phil Holmes, vice president, career 
      development, Goodwill Industries; Dennis Torbett, vice 
      president, workforce training and employment, Home Builders 
      Institute; and James Austin, Ph.D., president, the JFA 
      Institute..................................................    62
        Austin, James............................................   102
        Holmes, Phil.............................................    88
        Jackson, Stanley.........................................    73
        Jones, Charles...........................................    83
        Quander, Paul A., Jr.....................................    62
        Torbett, Dennis..........................................    89
    Robinson, Douglas, previously incarcerated, Bureau of Prisons 
      Facility...................................................     8
Letters, statements, etc., submitted for the record by:
    Austin, James, Ph.D., president, the JFA Institute, prepared 
      statement of...............................................   104
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................     3
    Jackson, Stanley, acting president, University of District of 
      Columbia, prepared statement of............................    76
    Jones, Charles, director, Employment Services, D.C. 
      Department of Employment Services, prepared statement of...    85
    Lappin, Harley G., Director, Federal Bureau of Prisons, 
      prepared statement of......................................    21
    Quander, Paul A., Jr., Director, Court Services and Offender 
      Supervision Agency, prepared statement of..................    65
    Snyder, George E., warden, Rivers Correctional Institution, 
      prepared statement of......................................    33
    Torbett, Dennis, vice president, workforce training and 
      employment, Home Builders Institute, prepared statement of.    92


DOING TIME: ARE DC PRISONERS BEING ADEQUATELY PREPARED FOR REENTRY WITH 
                     EQUAL ACCESS TO BOP SERVICES?

                              ----------                              


                       TUESDAY, OCTOBER 16, 2007

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m. in room 
2154, Rayburn House Office Building, Hon. Danny K. Davis 
(chairman of the subcommittee) presiding.
    Present: Representatives Davis of Illinois, Cummings, 
Kucinich, Clay, Norton, and Marchant.
    Staff present: Tania Shand, staff director; Caleb 
Gilchrist, professional staff member; Lori Hayman, counsel; 
Cecelia Morton, clerk; LaKeshia Myers, editor/staff assistant; 
Eleanor Hudson, intern; Howie Denis, minority senior 
professional staff member; and Benjamin Chance, minority clerk.
    Mr. Davis of Illinois. The subcommittee will come to order.
    Let me welcome Ranking Member Marchant, members of the 
subcommittee, hearing witnesses, and all of those in 
attendance. Welcome to the Federal Workforce, Postal Service, 
and the District of Columbia Subcommittee hearing, ``Doing 
Time: Are D.C. Prisoners Being Adequately Prepared for Reentry 
with Access to BOP Services?''
    The hearing will examine the manner in which the Federal 
Bureau of Prisons [BOP], provides educational, vocational 
treatment and transitional programming to D.C. prisoners held 
at the privately operated Rivers Correctional Institution in 
Winton, NC, as well as at other BOP-run facilities. 
Correctional Research has established that participation in 
such core programs contributes to substantial reductions in 
recidivism.
    The subcommittee is seeking detailed information on the 
nature, quality, availability, comparability, and effectiveness 
of these programs in the prisons where District prisoners are 
incarcerated.
    Hearing no objection, the Chair, ranking member, and 
subcommittee members will each have 5 minutes to make opening 
statements, and all Members will have 3 days to submit 
statements for the record.
    I shall begin.
    Good afternoon. Welcome to today's hearing to examine the 
rehabilitative services at Rivers Correctional Institution, a 
privately run Federal Bureau of Prisons facility housing D.C. 
inmates and foreign-born residents.
    There are 2 million Americans in prisons in the United 
States. Each year more than 650,000 ex-offenders are released 
from State and Federal prisons. They will return to civilian 
life. These men and women deserve a second chance to break the 
grip of a drug habit, a chance to support a family, to pay 
taxes, and to be self-sufficient.
    Many of these ex-offenders return to their communities 
unprepared and without the support they need to sustain their 
new lives. This is why I have sponsored H.R. 1593, the Second 
Chance Act. It is a bipartisan deal that addresses reentry 
reform with a comprehensive approach to help eliminate barriers 
and increase access to transitional services for ex-offenders.
    A third of all departments provide zero services to 
released ex-offenders, and most do not offer a transitional 
program, thereby placing a heavy burden on families and 
communities. Without structure and support to help ensure a 
lasting transition, we are unwittingly creating a revolving 
door for former inmates. These individuals pay a price, as do 
their families and society.
    Ex-offenders face many barriers that impede their return to 
society, which includes serious physical and mental health 
problems, homelessness, and lack of education, or minimal 
qualifications to hold a job. As a result, two out of three ex-
offenders will be re-arrested for new crimes within the first 3 
years after their release.
    This hearing will help shed light on the importance of 
transitional services for ex-offenders, not only in the 
District of Columbia but across the country.
    Currently, 7,000 District inmates under Federal 
jurisdiction are spread across 75 institutions and 33 States. 
Since the passage of the National Capital Revitalization and 
Self-Government Improvement Act of 1997, Congress has not 
conducted any hearings into BOP's management of D.C. prisoners.
    My colleague, Delegate Eleanor Holmes Norton, has been to 
Rivers Correctional Institution in Winton, NC, and the Federal 
Prison Institution in Cumberland, MD. She spoke to inmates and 
prison officials at both institutions. I commend her for her 
efforts to learn more about the educational and transitional 
services offered to D.C. inmates at BOP facilities.
    I thank you.
    [The prepared statement of Hon. Danny K. Davis follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Now I will yield to the ranking 
member, Mr. Marchant, for any comments that he might have.
    Mr. Marchant. Thank you, Chairman Davis. Thanks for holding 
this hearing today.
    I was not yet elected to Congress when the Lorton Facility 
was shut down in 2001; however, from what I understand, a 
number of congressional leaders from both sides of the aisle 
worked together with both the Clinton and Bush administrations 
to facilitate the transfer of the D.C. prisoners to the newly 
built Rivers Correctional Facility in North Carolina. I 
understand this change was much needed and a high priority for 
the local congressional delegation because of the extremely 
sub-par conditions at the Lorton facility.
    In transferring inmates to Rivers Correctional, the 
District of Columbia got a safe, new facility with no cost to 
the city coffers. Since the Federal Government absorbed the 
cost, I am anxious to hear of the conditions and programs in 
the Rivers Correctional Facility today and look forward to the 
testimony of the witnesses.
    Mr. Davis of Illinois. Thank you very much, Mr. Marchant.
    Delegate Norton, do you have anything?
    Ms. Norton. Thank you very much, Mr. Chairman. I want to 
thank Mr. Marchant for his work in cooperating with this 
hearing, but especially you, Chairman Davis, for holding the 
first oversight hearing concerning the conditions and 
circumstances of the District of Columbia felons since the 
Lorton, VA, facility was closed almost 10 years ago.
    The Federal Bureau of Prisons [BOP], took jurisdiction over 
inmates from the District at the request of the District of 
Columbia during the city's financial crisis. This hearing 
parallels the chairman's own ground-breaking work as the lead 
sponsor of the pending Second Chance Act that I have been 
pleased to join in cosponsoring. Today's hearing will add to 
the national record that shows overwhelmingly the urgency of 
passing the Second Chance Act this year.
    We welcome all of today's witnesses, and particularly thank 
Chairman Davis and his committee staff for the care with which 
this hearing has been put together, including their willingness 
to travel with me and my staff to the facilities controlled by 
BOP.
    Today's witnesses, including the leader from Rivers and 
from the BOP, the agencies that are responsible for assisting 
the successful reentry of our inmates, and practitioners and 
experts who have had success in assisting inmates to 
reconstruct their lives upon release, all will help open the 
door to the fuller investigation that is required.
    Among the additional urgent issues that will need attention 
is the affect of the Federal Parole System on D.C. inmates' 
length of sentence when they are on parole or when their parole 
is revoked. Despite efforts of the D.C. Council to clarify the 
issue under D.C. law, the time served on parole is not counted 
toward the length of an inmate's sentence upon returning to 
prison. That is quite exceptional and unusual.
    Except for appropriations hearings related to annual 
funding, there has been no oversight of D.C. inmates in Federal 
prisons, where they have been housed since the District 
requested a Federal takeover of the costs of felon 
incarceration and several other State functions for which 
cities in the United States are not responsible except for the 
District of Columbia. In turn, Congress enacted the 1997 
Revitalization Act transferring responsibility for D.C. 
prisoners, among other costs, to the Federal Government.
    The title of today's hearing, ``Doing Time: Are D.C. 
Prisoners Being Adequately Prepared for Reentry with Equal 
Access to BOP Services,'' indicates our concern that legal and 
structural issues may have had the unintended result of 
providing unequal access for D.C. prisoners to BOP services 
even though once sentenced they become Federal inmates as much 
as any other BOP prisoners, notwithstanding the finding of 
guilt pursuant to the D.C. Code.
    D.C. inmates and criminal aliens are the only Federal 
prisoners housed in private federally contracted facilities 
with services that do not mirror those available at BOP-run 
prisons. Although the Revitalization Act required some D.C. 
prisoners to be housed in private facilities, the statute did 
not contemplate a unique exception to uniform Federal policies 
concerning available services.
    The fact that the BOP, itself, houses the vast majority of 
D.C. inmates and the abandonment of the private option by the 
Federal Government, as mentioned in the Revitalization Act, 
except for Rivers, constitutes strong evidence of congressional 
intent to treat D.C. prisoners like others in the BOP system. 
However, our investigation thus far shows that even in BOP-run 
facilities this is not always the case, apparently because of 
legal issues.
    We are particularly concerned that, although almost 90 
percent of D.C. inmates are in BOP facilities, 65 percent who 
have had their parole revoked were recommitted to prison for 
drug-related offenses. No serious effort to help these inmates 
or to reduce crime permanently here will be possible without 
the congressional oversight we begin today with today's hearing 
and without considerably greater attention by the District of 
Columbia government and our own residents to our prison 
population while they are incarcerated and after.
    Often, thousands of miles away under Federal rather than 
the usual local jurisdictions, D.C. inmates have been left out 
of sight and out of mind. They and their families have few 
advocates and almost no visibility.
    To its credit, Rivers provides a free bus each way 
Thursdays through Sundays, but this means 8 hours of travel 
time, which is particularly difficult for families, whose 
visits experts have long documented as important for successful 
reentry.
    About 7,000 D.C. prisoners are housed in an incredible 
array of 75 different facilities in 33 States in groups of a 
few hundred and often far fewer. Rivers, with about 831 D.C. 
inmates, has the highest concentration of any single 
institution.
    The services available at BOP-run facilities staffed by 
Federal employees are more extensive with higher standards than 
those available at Rivers, apparently because the same services 
are not required or funded by the BOP contract. The absence of 
comparable substance abuse services, particularly at Rivers, 
almost guarantees problems for the inmates and for our city 
when they return.
    A limited non-certified program at Rivers is available to 
only 60 of the 800 or so inmates, although 50 to 80 percent 
have substance abuse problems. District residents even in BOP 
facilities do not qualify for early release incentives upon 
completion of a highly regarded 500 hour drug treatment program 
which is altogether unavailable at Rivers.
    The Rivers drug abuse program has little in common with the 
500 hour program, but is available to so few inmates that it, 
nevertheless, has a waiting list.
    The issues our investigation have thus far uncovered have 
less to do with BOP and Rivers as institutions than with the 
challenges Congress has not yet faced concerning what is 
necessary to integrate State felons into the life of a Federal 
prison system for the first time in U.S. history.
    Both the Rivers private facility and Cumberland that we 
visited appeared well-kept and orderly, and Rivers Warden 
George Snyder and Cumberland Warden Lisa Hollingsworth are both 
highly qualified prison experts who rose to their present 
positions through the merit system at BOP.
    As we toured every part of both facilities along with the 
wardens, we were impressed that D.C. inmates felt comfortable 
to walk right up to me at will and to speak freely about their 
concerns, without any fear or sense of intimidation. The most 
frequently mentioned concern related to drug abuse treatment.
    Our oversight must be circumscribed by issues of law that 
Congress can correct or practices that we can help BOP revise. 
Until now, Congress has never looked to see how the absorption 
of State prisoners into a Federal prison system for the first 
time has even operated, whether spreading D.C. prisoners 
throughout the country in so many different institutions has 
served the purposes of the Revitalization Act and the interests 
of inmates and the D.C. government in successful reentry, or 
whether there are other options for housing.
    The implications of placing residents, American citizens, 
in a facility with criminal aliens and the affect on services 
offered, and whether Congress, in allowing D.C. residents to be 
placed in private facilities, intended to reduce the level of 
services rendered by or through the Bureau of Prisons.
    These and a litany of other questions deserve a full 
investigation and answers after an investment of billions of 
dollars in Federal funds without any accountability as to the 
effects and outcomes.
    I appreciate the work of our subcommittee in beginning this 
effort today.
    Once again, I thank all of today's witnesses for their 
assistance in helping us understand and think through the 
issues before us.
    Thank you, Mr. Chairman.
    Mr. Davis of Illinois. Thank you very much, Ms. Norton.
    We will now proceed with our first panel of witnesses.
    I would like to ask Mr. Douglas Robinson if you would come. 
And please continue to stand until we swear you in. It is the 
custom of this committee that all witnesses are sworn.
    [Witness sworn.]
    Mr. Davis of Illinois. The record will show that the 
witness answered in the affirmative.
    Let me introduce Mr. Robinson. Mr. Robinson was 
incarcerated in prison for 16 years. He spent 11 years in State 
prison and the last 5 years in the Bureau of Prisons. He is 
currently employed as a stock worker at Goodwill Industries, 
and he is the kind of person that I think is the epitome of 
what we hope to see, and that is individuals who are able to 
find employment, individuals who are able to move ahead and 
demonstrate that they are, in fact, contributing members of 
society.
    Mr. Robinson, we thank you so much. You may proceed.

STATEMENT OF DOUGLAS ROBINSON, PREVIOUSLY INCARCERATED, BUREAU 
                      OF PRISONS FACILITY

    Mr. Robinson. My name is Douglas Robinson, and this is my 
testimony concerning my experience and rehabilitation at the 
BOP.
    While I was housed at McKean in Pennsylvania, they had the 
programs there, but the problem was it was such a long waiting 
list. A lot of programs were folding because of funds. So I was 
in there for about a year and a half, and I moved to 
Petersburg. At Petersburg, the same problem was going on. Staff 
was being laid off. Programs were folding. A lot of programs 
they had, the guys wanted to get, you couldn't get. And the 
waiting list was so long because they were telling us there was 
overcrowding in the prison system. So you might be waiting a 
year or two before you could get into a program. Like myself, I 
had other journeys, which was to enroll into a 500 hour drug 
program.
    I left Petersburg and went to Butner. I think that was my 
best experience, because for so long I had ducked and dodged 
that I had a problem, and I learned that my behavior was 
causing my problem. It wasn't just the drugs or whatever.
    While I was there it was pushed upon me to get my GED, 
which I did get. There they had college programs that were 
free. While I was at Petersburg, the college programs you had 
to pay for. Like myself, I couldn't afford it, because you are 
in there, you are making $9 a month, $12, $13, $15 a month, and 
everything was revolving around funds. They didn't have the 
funds to do this and do that.
    I am not speaking bad about the BOP. They have a lot of 
things to offer. But the problem to me that I saw was the 
funds. That is what I was told.
    Like myself and I think a lot of other inmates, there are a 
lot of us that do want to straighten out our lives, and it was 
a problem at first but I had to take it upon myself. It didn't 
stop there.
    When I arrived home, I made a choice to move on with my 
life. I am working now at Goodwill, and I am out there. I just 
came out of the halfway house about a week ago. Now I can move 
on with my life. I have more free time now. I can enroll in 
some classes and try to do something else with my life.
    Those are my concerns.
    Mr. Davis of Illinois. Thank you very much. We certainly 
appreciate not only your being here, but we appreciate your 
testimony.
    I will begin the questions. I have some questions I would 
like to ask you.
    What got you in prison? I mean, why did you or why do you 
think that you ended up going to prison?
    Mr. Robinson. I learned to me it was my behavior. It 
started from my behavior, my irrational thinking, you know, 
thinking that what I was doing was right. It started from the 
streets and the lifestyle of drugs, fast lifestyle. For so long 
I was caught up in that cage. It took me a long time.
    I don't blame anybody for that but myself. I had plenty of 
people to help me along the way, but I was a closed-minded 
person. Today I am a more open-minded person.
    Mr. Davis of Illinois. Were you using drugs or selling 
drugs?
    Mr. Robinson. I sold drugs. I used drugs.
    Mr. Davis of Illinois. How far did you go in high school?
    Mr. Robinson. Eleventh grade.
    Mr. Davis of Illinois. And by then you had started to use 
drugs?
    Mr. Robinson. I started about that time, yes, and dropped 
out of school.
    Mr. Davis of Illinois. And so you dropped out because it 
just didn't appear to be the thing to do, or you needed to 
generate money to get the drugs, or----
    Mr. Robinson. No. Money in my family too much wasn't the 
problem. I think I just drifted off. I wanted to be with the 
crowd. It was a stupid mistake I made.
    Mr. Davis of Illinois. Were you a good student?
    Mr. Robinson. Yes, I was a pretty good student. I played 
sports at Cardozo. I could have gotten a scholarship and go to 
college playing football, but I dropped out and went down the 
wrong path.
    Mr. Davis of Illinois. And when you were arrested, it was 
finally for what?
    Mr. Robinson. Distribution of heroin, armed robbery, and 
mayhem.
    Mr. Davis of Illinois. I noticed that you did mention the 
facility that you thought you had your best time at, or the one 
that really helped you. Could you tell us again which facility 
really helped you, you felt really helped you get on the path?
    Mr. Robinson. It was Butner. I took the 500 hour drug 
program, and a counselor that was working with me was a pretty 
good guy. Due to the death of my Mom while I was there, I was 
thinking about dropping out of the program until 1 day he took 
me in his office and talked to me. I thought about what he said 
and that is what really changed me.
    Mr. Davis of Illinois. And so you feel that when you came 
to grips with your drug problem or recognized that you had a 
drug problem and needed some help with it, that is really what 
changed your approach to dealing with life, in a sense?
    Mr. Robinson. That was my main problem, sir. Yes, sir. It 
was the lifestyle that I was living that was in my way, that 
kept me from moving forward.
    Mr. Davis of Illinois. So if you had a recommendation to 
the Bureau of Prisons that said to them, here is what I think 
you can do better than or more than, or here is what I think 
would help more inmates, what would that recommendation be?
    Mr. Robinson. It would be better programs, like reentry 
programs, and maybe I think make it mandatory or some way make 
it that a person can get help for their problems, because a lot 
of times your problems start with your behavior, and a lot of 
guys don't realize that. I didn't realize it. That is basically 
where it starts.
    Mr. Davis of Illinois. And so you think that more emphasis 
on helping inmates with their individual problem or finding out 
what their individual needs are, that this would in all 
likelihood help them more?
    Mr. Robinson. Yes, sir.
    Mr. Davis of Illinois. Well thank you very much. I 
certainly appreciate your testimony.
    I would suspect that we have been joined by Mr. Kevin 
Barnes. Mr. Barnes, is that correct?
    Mr. Barnes. I apologize for my lateness. Thank you, Mr. 
Chairman.
    Mr. Davis of Illinois. We understand, especially if you are 
dependent upon transportation systems that sometimes you don't 
have control over.
    What we would really like to do then is go back and give 
you the opportunity to make your statement, and then we will 
continue with the questions.
    Before you do that, I need you to stand and get sworn in.
    [Witness sworn.]
    Mr. Davis of Illinois. The record will show that the 
witness answered in the affirmative.
    Now you might just be seated and tell us your statement, 
and then we will pick back up with the questions.

  STATEMENT OF KEVIN BARNES, PREVIOUSLY INCARCERATED, RIVERS 
                    CORRECTIONAL INSTITUTION

    Mr. Barnes. Good afternoon ladies and gentlemen. It is 
truly an honor and a privilege to sit here before you today on 
behalf of the inmate population at Rivers Correctional 
Institution.
    Today I will speak briefly about the pros and cons of the 
program structure at Rivers and attempt to shed a little light, 
and hopefully make the whole situation a little better.
    As a whole, the program structure is lacking. There isn't 
enough effort placed education or tools to help the inmates 
educate themselves. The library is about the size of an average 
living room in the District of Columbia. Most of the books for 
inmate use are mostly novels, and the law library is grossly 
out of date. If you were to ask about the athletic programs, I 
would say that they get top priority over anything educational.
    There is an HVAC course that deserves attention, but only 
for inmates 24 and under. Where does that leave the other 70 
percent?
    I truly believe that the staff at Rivers, as a collect 
whole, doesn't care if the inmates are educated, because the 
inmates return to D.C. The next time they have to see the 
inmate again is when they return, getting off the bus to come 
back.
    I was a participant in the drug program at Rivers, and I 
can honestly say I learned a few things, but it could have been 
better.
    First of all, the program isn't accredited. Second, most of 
the inmates from Rivers are from D.C., and no one is given any 
type of good time earned, like the rest of the country gets for 
the same type of program. The drug program is under-staffed and 
under-equipped to deal with the overwhelming demand. The 
majority of inmates are either convicted of drug dealing or 
drug-related crimes.
    I believe that better drug treatment at Rivers could 
possibly reduce the high recidivism rate. In my opinion, anger 
management, domestic violence, and parenting classes would also 
be of great importance to the inmate population.
    I know Rivers, or any prison, for that matter, is not a 
college, but better programs could possibly make a big 
difference in whether someone stays out or returns back.
    Once he leaves Rivers, the inmate is either placed in a 
halfway house or directly back into society. Maybe with some 
type of transitional housing or better vocational programs 
inside, ex-offenders might have better choices or be better 
equipped to succeed from turning from criminal behavior.
    In my opinion, there is more to be done at Rivers, and I 
hope anything I said could help.
    If we all work together we could make things more conducive 
on the inside so that our fathers, brothers, and sons will be 
more productive on the outside.
    Thank you.
    Mr. Davis of Illinois. Thank you very much. We really 
appreciate the effort that you made to get here, and we 
certainly appreciate your testimony.
    We will go back to the questioning. I had just finished, 
and now I would yield to the ranking member for his round of 
questions.
    Mr. Marchant. Thank you, Mr. Chairman.
    Thank you for your testimony Messrs. Robinson and Barnes.
    I think the main focus of the hearing today should be on 
is: what can be done to improve the facility at Rivers 
Correctional so that when the prisoners return to society they 
are better able to enter back into the city if they choose to 
and be productive citizens? Those are the main questions that I 
have, and I would ask each of you to make a statement of maybe 
the most important things that you think could be done at 
Rivers to make it the kind of facility that an inmate could get 
out of Rivers, come back to D.C., and be a productive person in 
society.
    Mr. Robinson.
    Mr. Robinson. Sir, I was never at Rivers, but just hearing 
Mr. Barnes speak and from other inmates that I have talked to, 
he spoke of better programs, because the majority of inmates in 
the prison system are using drugs or sold drugs or dealing in 
crime. Like I spoke before, what I learned is the behavior. 
Like I said, the drug program should be more. It is not the 
type of care. The staff, they are not interested. So if they 
are not interested, you have inmates there, and they really 
need somebody to push them.
    And, like I said, funds is one of the problems, or better 
programs, because most of the programs that were going on were 
shut down because of the funds. That is what I was told as an 
inmate.
    Mr. Marchant. Mr. Barnes.
    Mr. Barnes. I believe, first, that some of the money, at 
least at Rivers, I know a lot of the money from Canteen, where 
the inmates are allowed to purchase things, I believe that the 
majority of that money goes to athletics and things of that 
nature. That is not going to help an inmate when he comes home, 
so I think they should divert some of that money into 
vocational programs, because the programs that they do have at 
Rivers, as far as vocation, like HVAC things that will help 
someone when they get back to society be able to earn a living 
without turning back to criminal behavior, it should be 
directed at that, because the program that was at Rivers 
stopped at 24. You have to think, 70 percent of the whole 
compound, the place where the inmates are, is well over 24. 
Where does that leave them? There should be more programs 
directed at parenting skills, things of that nature, learning 
how to deal with the anger issues, because all of those play a 
big part in someone going back to their old criminal behavior.
    If the money could be directed or just some type of 
program, period, that would just help someone deal with coming 
out of an institution into society, like the domino effect, you 
complete that, you complete this. I mean, the rest is up to the 
inmate, but if you at least put the tools there for them to use 
I think that would be a big help.
    Mr. Marchant. Thank you, Mr. Chairman.
    Mr. Davis of Illinois. Thank you very much, Mr. Marchant.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Could I just first say to both of you thank you. I am proud 
of you. I appreciate your coming forward so we can have some 
idea from people who have served time. One of you has served 
time only in a BOP facility, Mr. Robinson. Mr. Barnes has 
served time in Rivers.
    Have you also ever served time in a BOP facility?
    Mr. Barnes. Not really, just the D.C. jail, CTF, and then 
Rivers.
    Ms. Norton. So you really do give us a picture of some of 
the differences just in what you have said already.
    I also congratulate you both for kind of facing up to the 
responsibility you are taking for your own crimes. That, like 
everything, is the first step to moving forward.
    Mr. Barnes, you are employed?
    Mr. Barnes. Yes.
    Ms. Norton. Where?
    Mr. Barnes. I work for Hunt Consulting. I am an 
electrician. I am an electrician by trade, and I am also in the 
process of trying to start my own nonprofit organization 
targeted to youth, at-risk youth. It is going to take a little 
work, but right now I am just an electrician.
    Ms. Norton. How did you learn to be an electrician, Mr. 
Barnes?
    Mr. Barnes. On-the-job training. I just picked it up. I 
used to be the guy that cleaned up behind the electricians; now 
I am the top electrician at my job.
    Ms. Norton. Did you know how to be an electrician, as it 
were, before you went to prison?
    Mr. Barnes. I wasn't as good as I am now, but there was a 
foundation, but I came out and did more.
    Ms. Norton. Well, the most-voiced complaint from inmates, 
former inmates I meet in my job fairs and as I go around the 
city, is the difficulty in finding any employment. How were you 
able to find employment, Mr. Barnes?
    Mr. Barnes. I wanted it. I worked hard for it and it came. 
A lot of times people make excuses but they don't make an 
effort. If you make more of an effort as opposed to an excuse, 
you probably would get what you wanted. I mean, I can't speak 
for everybody, but I just wouldn't take no for an answer.
    Ms. Norton. How old are you, Mr. Barnes?
    Mr. Barnes. I am 30.
    Ms. Norton. How long have you been incarcerated?
    Mr. Barnes. Three years.
    Ms. Norton. All right. Let's go to Mr. Robinson. Mr. 
Robinson, you are also employed. Where are you employed?
    Mr. Robinson. I am employed at Goodwill.
    Ms. Norton. Where?
    Mr. Robinson. Goodwill.
    Ms. Norton. How were you able to obtain employment, Mr. 
Robinson?
    Mr. Robinson. Well, I was out looking for a job at the time 
I was in the halfway house, and I came back 1 day and they sent 
me out. The halfway house sent me out to Goodwill. While I was 
there, I told the guy that I had a serious violent crime.
    Ms. Norton. You had what?
    Mr. Robinson. A serious violent crime.
    Ms. Norton. You told him that right off?
    Mr. Robinson. Yes, right off the break. And he said, Man, 
don't even worry about it. He said, I am going to give you a 
chance. So I filled out the application and started the job and 
I have been there ever since.
    Ms. Norton. Now long is that you have been there, Mr. 
Robinson?
    Mr. Robinson. I have been there about 5 months. I have been 
home 6 months. I have been there 5 months.
    Ms. Norton. How long did you look for work before you were 
able to obtain this position?
    Mr. Robinson. About 3 weeks. I was turned down because of 
my record.
    Ms. Norton. How long have you been incarcerated?
    Mr. Robinson. Sixteen years.
    Ms. Norton. Well, I consider it very important that both of 
you have jobs. This is the main issue. I want to get on to the 
next issue.
    Mr. Robinson talked in his testimony about the HVAC 
program. Mr. Barnes indicates that at Rivers the HVAC program--
now this is a program having to do with heaTing and air 
conditioning; is that correct?
    Mr. Barnes. Yes, ma'am.
    Ms. Norton. That was limited to people 24 to what? Under?
    Mr. Barnes. Twenty-four and under.
    Ms. Norton. That was not the case, or was the case, Mr. 
Robinson, where you had access?
    Mr. Robinson. That was not the case. In the BOP there was 
no age limit.
    Ms. Norton. So there is a difference I don't understand and 
we will have to find out. It may have to do with 
apprenticeships and what you have to do once you get out, but, 
Mr. Barnes, I am impressed that you said 70 percent of the 
people couldn't even begin to qualify because of the age limit. 
We will have to ask why the age limit was there.
    What do you do at Goodwill, Mr. Robinson?
    Mr. Robinson. Right now I work on the docks. I load up 
tractor trailers right now. This is something temporary until 
another job comes up, and I am waiting on another job position 
to come through pretty soon.
    Ms. Norton. So you applied for another position?
    Mr. Robinson. No. I talked to a friend of mine, and I have 
a trade refinishing tubs and tiles.
    Ms. Norton. Because Goodwill Industries has a record of 
hiring people with records throughout the United States.
    Mr. Robinson. Yes, ma'am.
    Ms. Norton. And you figure that, having worked there and 
attained a good record, you will be able to go to other 
employment?
    Mr. Robinson. Yes, ma'am.
    Ms. Norton. They are going to testify here, as well, so we 
would be very interested in that.
    Now, you mentioned that there were long waiting lists at 
McKean and programs were limited. What services did you have in 
mind that were limited?
    Mr. Robinson. That were limited?
    Ms. Norton. You said the services were limited and the 
waiting lists were long.
    Mr. Robinson. They had very few vocational programs there. 
They had just opened up an agriculture class, plants and stuff, 
and I had enrolled in it. The problem was that you had guys 
that might be at the prison 5 or 6 years. I had just arrived, 
so their names are already on the list. The wait list was so 
long, by the time--I never got a chance to enroll into the 
class, basically.
    Ms. Norton. And part of this, of course, is that Congress 
has not fully funded or has not funded perhaps all of the BOP 
facilities as much as we would like, and that is something we 
were interested in, as well, in talking about cuts and the 
rest, and you seem to understand that had to do with 
availability of funds.
    The HVAC or heating and air conditioning training, how much 
of that did you have?
    Mr. Robinson. Well, I did it before when I was at Lorton, 
and I was doing it while I was there, but, like I said, I was 
moving around so much, I was there for about a year and then I 
had enrolled into the 500 hour drug program, and my time came 
that I had to leave to go to Butner, so I was there for about a 
year and they took me into the program.
    Ms. Norton. Now, you were fortunate. You did get access to 
the 500 hour program?
    Mr. Robinson. Yes, ma'am.
    Ms. Norton. And you spoke highly of the 500 hour program. 
Do you believe that it was instrumental, was helpful to you in 
overcoming the use of drugs when you got out?
    Mr. Robinson. I think it was very helpful. But, like I 
said, before I was pretty closed-minded to the fact about my 
problem, and I was the type of person I wouldn't open up and 
talk to just anybody about my problems, so they had a thing in 
the class that you had to open up and share with others. I 
think that helped a lot. Basically, I think just being open-
minded, learning that my way wasn't the way.
    Ms. Norton. Mr. Robinson, I must tell you, when we went to 
Cumberland I got to see the 500 hour program in operation. I 
have never seen anything like it. There was no authority 
figure, as it were, intervening. The inmate spoke about what he 
had done, where he was, and the other inmates got up and 
criticized him, and he had to respond. All I can say is I wish 
the whole world out here to go through a 500 hour program, 
particularly all of us who are used to making excuses, because 
the honesty that wrung out of inmates was extraordinary to 
behold. I got some sense of the program.
    Are you free from drugs now? Do you feel confident that you 
will be free and remain free from drugs?
    Mr. Robinson. I am doing my best to stay free. I know it is 
going to be a struggle. It is a lifetime thing, you know. I 
deal with the demons every day, but I am determined to beat it. 
I am tired of living that type of life. I am through.
    Ms. Norton. As a D.C. resident--we will get into this later 
as to the reasons--but you did not get any time off, did you, 
for participating in this program?
    Mr. Robinson. No, I didn't get any time off.
    Ms. Norton. This, of course, is an important ingredient of 
this program. In addition to the candid back-and-forth----
    Mr. Robinson. Yes, I know.
    Ms. Norton [continuing]. Kind of talk among peers. 
Completion of the program could qualify an inmate for time off, 
unavailable to D.C. residents, and yet D.C. residents try their 
best to get in the program, and you did.
    Mr. Robinson. Yes.
    Ms. Norton. Even without the incentive, you sought to get 
in the program. Why?
    Mr. Robinson. Why?
    Ms. Norton. Even without the incentive of knowing you would 
get some time perhaps deducted from your sentence, you, 
nevertheless, wanted to get in the 500 hour program?
    Mr. Robinson. I knew I wasn't going to get any time off 
before I even enrolled into the program. It was basically I had 
determined that I needed it. I knew, talking to other positive 
inmates had told me about the program, and a lot of guys were, 
like, Why are you taking the program when you are not getting a 
year off? So I basically needed help. That is why I enrolled 
into it.
    Ms. Norton. Mr. Robinson, do you mind telling us your age?
    Mr. Robinson. My age? I am 52.
    Ms. Norton. Mr. Barnes, your testimony about the HVAC 
program is important to us, and your testimony about good time, 
as it were, and the absence of any such time related to the 
Rivers program. Did you have any contact with the Rivers' drug 
program?
    Mr. Barnes. Yes. I completed the 500 hour program.
    Ms. Norton. Tell us about that program.
    Mr. Barnes. Well, the program is fairly new, so that is why 
in my testimony I said it was under-staffed, because the staff 
that was working the program, they weren't working as a team. I 
got a lot out of the program because I put a lot into the 
program. I really wanted to really understand why I thought 
certain ways or why I saw things a certain way to participate 
in such behaviors. But that was majority of me. The program 
could have been a lot better.
    D.C. inmates, we don't get time off. I already knew that 
going into the program, that we didn't get a year off or any 
time off. I knew that, but I wanted to look into myself. But as 
a whole it could be more done into the program, like programs 
such as in the BOP, those programs are sectioned off from other 
inmates. Our program was right there, like our drug program 
block was right here, and then you have all the other right 
there.
    Ms. Norton. What you are referring to is what is in BOP 
called a residential program----
    Mr. Barnes. Right.
    Ms. Norton [continuing]. For those in the 500 hour program. 
You are calling this a 500 hour program. it is a different 
program.
    Mr. Barnes. No, it is the same thing. It was supposed to be 
the same thing. The therapeutic community, that is what they 
called it, the TC, the therapeutic community, but it wasn't.
    Ms. Norton. Yes. I am saying that the BOP program is a 
certified program that is different from the program offered at 
Rivers, but Rivers does offer this program. We understand that 
very few inmates get to take the program, to be a part of the 
program. Is that your experience?
    Mr. Barnes. To some extent.
    Ms. Norton. Now, what most interested me in going to these 
two institutions--and I finally got to understand the 
difference in a way that seems to me is central--at the 
Cumberland institution, a BOP-run institution, the life of the 
inmate was structured, not unlike the way our lives out here 
are structured. We get up, we go to work, we do certain things 
in the morning. So the BOP at that institution essentially sent 
inmates from activity to activity. Sometimes there was not 
enough work but they still had them out there doing some work. 
That was part of what they were to do. But what we saw at the 
BOP facility was a structure so that one's life imitated life 
out here in the sense that you don't simply sit around and 
``serve your time'' or wait for your time to be over.
    Do you recall your time being structured, your BOP time, 
which is the only time, of course, that we are asking you 
about, your time in Federal prison being structured where you 
went from one activity to the other activity, etc.?
    Mr. Robinson. Yes, ma'am.
    Ms. Norton. Did you have any work to do there?
    Mr. Robinson. Yes. We worked, but, like you said, it was 
due to the overcrowdedness, but they did. Instead of working 8 
hours, they worked us 4 hours, like half a day, so other 
inmates could work. From there, on to school, to school, work, 
and taking up other little classes and stuff. To me, that is 
the only way I could do my time. I just can't lay around, 
because I just had to do something to keep going, you know. 
Most of the time when you lay around doing nothing, most of the 
time you are going to get involved in something.
    Mr. Davis of Illinois. We are going to have to go and vote 
in a minute, and I have a question that I wanted to ask also.
    Ms. Norton. I am almost through.
    The contrasts between these two, you, on the other hand, 
Mr. Barnes, testified that the athletic program was there, but 
you did not testify about activities of the kind that Mr. 
Robinson has just described.
    Mr. Robinson. I wasn't here to hear what he described, but, 
like I said earlier in my testimony, at Rivers it was more 
about athletics. It was about the baseball tournament or the 
football tournament or flag football tournament, and that was 
the extent.
    Ms. Norton. So you could spend all day kind of hanging out 
in the athletic facility?
    Mr. Robinson. Yes. The gym is open from the time that they 
serve breakfast. Right after they serve breakfast, the gym is 
open. The school is open, but that is just for GED for the most 
part, GED and light computer skills. The library is extremely 
small, like the size of a living room in a D.C. apartment. That 
is one of the biggest gripes I had with the institution, 
because if you don't give somebody to put their mind on, they 
are going to put their mind on anything. I mean me, personally, 
I ordered all my own books from outside the institution because 
I was very upset with the lack of reading material. I didn't 
want to do my time reading novels.
    Ms. Norton. Mr. Chairman, this is a very important point, 
the real difference between the institutions. I yield back the 
rest of my time.
    Mr. Davis of Illinois. All right. Thank you very much.
    The question that I had, Mr. Robinson, you mentioned staff 
relative to the substance abuse program or the drug program, 
that you didn't get the impression that staff were as 
interested.
    Mr. Robinson. Right.
    Mr. Davis of Illinois. What made you think that?
    Mr. Robinson. What made me think that?
    Mr. Davis of Illinois. Yes.
    Mr. Robinson. Because like what she was saying, being at 
Cumberland, because a lot of the programs that inmates went to 
besides Butner, they are just riding the time away. When I left 
to go to Butner, everybody said, You are going to one of the 
strictest programs in the BOP, so it speaks for itself.
    Mr. Davis of Illinois. And, Mr. Barnes, do you feel that if 
there had been more direction toward the educational programs, 
that inmates may have pursued those more than just the pursuit 
of the athletic programs; that seemingly people would go in the 
athletic programs of their own volition, but not necessarily 
pursue the educational programs as much on their own?
    Mr. Barnes. Yes. I believe, given more opportunity for 
education, I believe a lot of inmates would choose education, 
at least some of the time, as opposed to just sports all the 
time.
    Mr. Davis of Illinois. So you are recommending in a sense 
that the institution place more emphases on educational program 
spending?
    Mr. Barnes. Yes.
    Mr. Davis of Illinois. Well, thank you both very much. 
There is a vote, and I am going to have to go and vote. We 
appreciate your testimony. We appreciate your coming. I think 
you have been very helpful.
    I will recess until I get back from voting.
    [Recess.]
    Mr. Davis of Illinois. The subcommittee will come to order.
    We will now hear from our second panel. I will introduce 
them first, and then swear them in.
    The Honorable Harley G. Lappin joined the Bureau of Prisons 
in 1985 as a correctional treatment specialist at the Federal 
correctional institution in Texarkana, TX. He held a variety of 
positions at eight Bureau of Prisons institutions across the 
country and several correctional institutions in Butner, NC, in 
1996. On April 4, 2003, he became the Bureau of Prisons' 
seventh Director. He is responsible for the oversight and 
management of the Bureau of Prisons' 114 institutions and for 
the safety and security of more than 200,000 inmates under the 
agency's jurisdiction.
    We welcome you, Mr. Lappin, and thank you very much for 
being here.
    Mr. George E. Snyder has held a variety of positions in the 
criminal justice system. He has served as warden of various 
prison facilities for over 15 years. He became warden of Rivers 
Correctional Institution in 2003. He is responsible for the 
administration, operation, and correctional training of 
offenders at Rivers. And I must confess that he is a man after 
my own heart because he has also functioned as a school 
teacher, and I happen to believe that teachers in many 
instances and in many ways are the salt of the earth in our 
society.
    Let me welcome both of you gentlemen. Please stand and 
raise your right hands and be sworn in.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that the 
witnesses answered in the affirmative.
    Gentlemen, we are, indeed, again delighted to have you, and 
we will begin with Mr. Lappin.

  STATEMENTS OF HARLEY G. LAPPIN, DIRECTOR, FEDERAL BUREAU OF 
  PRISONS; AND GEORGE E. SNYDER, WARDEN, RIVERS CORRECTIONAL 
                          INSTITUTION

                 STATEMENT OF HARLEY G. LAPPIN

    Mr. Lappin. Good afternoon. It is a pleasure to be here. 
Good afternoon, Congressman Davis and members of the 
subcommittee. I appreciate the opportunity to appear before you 
today to discuss the role of the Bureau of Prisons in the 
confinement, care, and treatment of offenders from the District 
of Columbia.
    The Bureau of Prisons is responsible for the care and 
custody of more than 200,000 inmates in 114 Federal 
institutions and a number of contract facilities throughout the 
United States. We are responsible for the incarceration of 
inmates who have been sentenced to imprisonment for Federal 
crimes and the detention of individuals awaiting trial for 
sentencing in Federal court.
    In addition, based on a 1997 Federal law, our agency is 
also responsible for the District of Columbia's sentenced felon 
inmate population. The National Capital Revitalization and 
Self-Government Improvement Act of 1997 required the Bureau of 
Prisons to assume responsibility for the incarceration of the 
District of Columbia's sentenced felons by December 31, 2001. 
Immediately after passage of the act, we began working with the 
Department of Corrections in Washington, DC, to ensure that the 
transfer of inmates would be orderly and efficient. Our 
ambitious construction schedule and our use of some State 
correctional institutions and some privately operated 
facilities allowed us to meet the actual requirement prior to 
the deadline. The transfer was completed in November 2001.
    After the Revitalization Act passed, we initiated a process 
to procure private contract beds as required by the statute. We 
divided the procurement into two phases for two separate 
contract facilities. The first phase of the procurement 
resulted in a 1999 contract award for a facility in 
Philipsburg, PA. The second phase of the procurement resulted 
in a contract with the Rivers Correctional Institution in 
Winton, NC.
    In February of this year, we transferred all of the D.C. 
inmates out of the Moshannon Valley Correctional Center in 
Philipsburg. The vast majority of these D.C. inmates were 
redesignated to Rivers Correctional Institution.
    Currently, Rivers Correctional Institution confines 
approximately 1,300 inmates, approximately 700 D.C. inmates and 
600 criminal aliens.
    The mission of the Bureau is to provide safe, secure, 
humane, and cost-effective confinement of inmates and to 
provide opportunities for offenders to gain the skills they 
will need to return to society as productive and law-abiding 
citizens.
    Our programs stress the development of work skills and life 
skills needed to enhance employment upon release and to help 
inmates maintain a crime-free lifestyle.
    Our inmate programs include work, education, vocational 
training, substance abuse treatment, opportunities for 
religious observance, psychological services, and counseling, 
release preparation, and other programs that impact essential 
life skills and social values.
    We also provide a variety of other structured activities 
that are designed to teach inmates productive ways to use their 
time.
    Preparation for reentry begins in the first days of an 
inmate's incarceration. The vast majority of our inmate 
programs and services are geared toward helping inmates prepare 
for their eventual release.
    We also continue to implement our inmate skills development 
initiative. This is a strategy the BOP has undertaken to unify 
our inmate programs and services into a comprehensive reentry 
strategy.
    D.C. inmates confined to the Rivers Correctional 
Institution are offered the opportunity to participate in a 
variety of programs. Based on some recent reviews, we intend to 
enhance the vocational training programs and to enhance and 
certify the residential drug abuse treatment program to be 
consistent with our residential treatment program.
    In addition, we have composed a final rule to implement the 
law that allows non-violent D.C. co-defenders to receive a 
reduction of up to 1 year off their term of imprisonment upon 
successful completion of the residential substance abuse 
treatment program. We will publish the rule in conjunction with 
issuing our own updated policy, which is currently in the final 
review and clearance process.
    Mr. Chairman, this concludes my formal statement. I would 
be pleased to answer any questions you or other members of the 
subcommittee may have.
    [The prepared statement of Mr. Lappin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much, Mr. Lappin.
    We will proceed now to Mr. Snyder.

                 STATEMENT OF GEORGE E. SNYDER

    Mr. Snyder. Chairman Davis and distinguished members of the 
subcommittee, my name is George Snyder, warden of Rivers 
Correctional Institution located in Winton, NC. On behalf of 
the GEO Group, Inc., I thank you for the opportunity to testify 
today regarding the various programs offered to inmates housed 
in our facility.
    I would like to briefly introduce my wife, Jeannie, who is 
here with me today, as well as David Farmer, the Assistant 
Warden for Programs at Rivers Correctional Institution.
    The GEO Group, Inc., is a world leader in the delivery of 
correctional, detention, and residential treatment services to 
Federal, State, and local governmental agencies around the 
globe, including 68 correctional and residential treatment 
facilities with a total design capacity of approximately 59,000 
beds.
    Rivers Correctional Institution is accredited by the 
American Correctional Association and by the Joint Commission 
on Accreditation of Health Care Organizations.
    A little bit about my background. I have roughly 27 years 
of experience in public safety and correctional services. I 
have a bachelor's degree in law enforcement, a master's degree 
in criminal justice, and a certificate in public 
administration. I was proud to be named the 2006 Warden of the 
Year by the GEO Group. I have taught courses on correctional 
services at four different universities. I have dedicated the 
bulk of my adult life to administering correctional services in 
the most effective manner possible for the public good.
    Mr. Chairman, I share the subcommittee's interest in 
ensuring that inmates at Rivers Correctional Institution have 
access to the most effective programs possible under the 
resources available. In my long career, I have come to 
recognize the important role such programs can plan in the 
lives of inmates who take advantage of them.
    Rivers Correctional Institution offers inmates several 
substance abuse, educational, and vocational programs designed 
to help participants become productive and responsible members 
of their community. Let me highlight just a few.
    Under the direction of a licensed doctoral-level 
psychologist, the Rivers Correctional Institution Psychology 
Department oversees the substance abuse program and a 
residential drug treatment program. The 40 hour substance abuse 
program is conducted in a classroom setting and provides 
inmates with information on alcohol and drugs and the physical, 
social, and psychological impact of these substances.
    The program challenges inmates to honestly look at 
consequences of alcohol and other drug use in their life. The 
course is considered a prerequisite for the New Beginning drug 
treatment program.
    The New Beginning drug treatment program is a 9-month 
residential drug treatment program that provides a continuum of 
treatment services to inmates with a documented history of 
substance abuse problems. This comprehensive program is 
conducted within a highly structured regimen of a modified 
therapeutic community composed of inmates with similar problems 
living and working together, elements critical to building a 
sense of community and cohesiveness among participants and 
staff.
    After completing the program, inmates are provided with an 
opportunity to continue their involvement in treatment through 
the after-care program. Participation in weekly after-care 
meetings provides a forum for inmates to practice skills 
acquired during treatment and prevents inmates from slowly 
returning back to old behavior patterns.
    Participation in the RCI residential drug treatment program 
does not preclude transfer to the Federal Bureau of Prisons for 
participation in their 500 hour drug treatment program.
    Our education and vocational programs are also designed to 
help participating inmates be responsible citizens upon 
returning to their communities. Education programs include 
English as a second language, adult basic education, pre-
general equivalency degree, general equivalency degree, and 
life skills/parenting.
    Our vocational programs include computer technology I and 
II; wood working; heating, ventilation, and air conditioning; 
and one of our newest programs that we are real excited about 
that we are working in conjunction with the University of the 
District of Columbia, CSOSA is a work force transition program.
    Mr. Chairman, that concludes my summation of a few of the 
programs offered at Rivers. I look forward to answering any 
questions the subcommittee members may have on this very 
important subject.
    [The prepared statement of Mr. Snyder follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much, Mr. Snyder. I 
want to thank both of you gentlemen for your statements. Please 
know that your full statements will be included in the record, 
and we appreciate your summations.
    Let me begin, Director Lappin, trying to understand the 
contract and the provisions of the contract with the GEO Group.
    The contract requires the Bureau of Prisons to conduct 
reviews for contract compliance and quality assurance based on 
performance requirements outlined in the contract. In fact, the 
GEO Group may earn up to 5 percent of their contract amount 
based on contract performance. The Bureau of Prisons' 
contracting office may also reduce payments for non-compliance. 
Let me ask, How often has the Bureau of Prisons conducted 
performance reviews?
    Mr. Lappin. Congressman, our contracts with all private 
contract organizations are performance based, so let me just 
make sure we understand. This is not a contract that lays out 
specifically line-by-line exactly what the contractor will 
provide. It is performance based. We give general guidance and 
we oversee the implementation of that contract through a number 
of ways.
    No. 1, we have staff full time at each of our contract 
facilities, so of the 200,000 inmates at the Bureau of Prisons 
there are about 22,000 in private contract facilities, 13 
private contracts, one of which is Rivers. We have staff full 
time at those institutions--that is 5 days a week. They will go 
in on the weekends if necessary--monitoring the general 
oversight of the contract.
    We then also have contract folks coming in addressing 
specific issues with the contract yearly, and then we have an 
``audit process'' by which a team of our staff go into each of 
the contract facilities twice a year and evaluate the programs, 
the contract, and so on, and determine their compliance.
    So there is a combination of ways that we monitor the 
contract through the Bureau of Prisons.
    Mr. Davis of Illinois. Has the GEO Group received any 
performance-based awarded fees?
    Mr. Lappin. You know, I don't have it with me. We could 
provide for the record what award fees occurred. I don't have 
that specific information, but early on in the process I know 
there were some deductions. Practice makes perfect. Whenever 
something is new, it takes a little time to work through the 
procedures. But we have been in there. I checked the last four 
performance monitoring assessments, of which they received good 
ratings. I am not sure if they received an award or not or were 
subject to some deduction, but we can certainly provide that.
    Mr. Davis of Illinois. So there were some areas where they 
were probably up and maybe some areas that may have needed some 
correction or additional conversation?
    Mr. Lappin. Let me be a little more specific. When we go in 
there, a team goes in there twice a year. They look at 
correctional programs that are provided specifically, they look 
at the correctional services operation--that is the oversight 
of safety and security--the correctional staff, education, 
recruitment, food service, health services, human resources, 
inmate services, inmate systems, safety and environmental 
health facilities, and then there are some areas that are 
monitored more remotely, like education, recruitment, so on and 
so forth.
    They received good or above reviews in each of those prior 
two monitoring visits. There were some deficiencies in a few of 
the areas, which is not uncommon. We have an audit process in 
the Bureau of Prisons, as well, and we go out and review 
programs routinely, and on occasions we find deficiencies which 
are provided to the institution and they are instructed to make 
up corrections and provide to us a plan by which those 
corrections will occur. So there were a few areas that had some 
deficiencies, but nothing significant.
    Mr. Davis of Illinois. Have you or any members of your 
staff noted or seen anything that would suggest that there 
might be some differential between the way that inmates from 
the District of Columbia are handled, treated, and inmates from 
other places may be handled or treated?
    Mr. Lappin. About a year, year and a half ago, we began 
dealing directly with you, sir, on some of the reentry issues. 
I asked my staff to go back and reevaluate the contract with 
Rivers specifically, because it is the only contract that 
houses U.S. citizens in their population, compared to the 
contracts that had been let for the other facilities which 
housed illegal aliens, the majority of which were going to be 
deported.
    At that time we realized that the contract wasn't specific 
enough applicable to vocational training and the drug treatment 
program, and so we have been working with the GEO Group in 
rewriting, revising, as well as the CSOSA, applicable to 
vocational training to identify which vocational trainings 
would be most appropriate, and then we will be working with the 
GEO Group to build that into a revised contract to add some of 
those programs.
    I was more concerned about the whole drug treatment 
process, so just a few weeks ago I sent some of our staff to 
Rivers to evaluate--that is our drug treatment staff who 
oversee our program--sent them to Rivers to evaluate the drug 
treatment program at Rivers and this issue of certification. We 
found many similarities, although there were some areas that 
weren't quite at the level of our program, and we are going to 
set about taking corrective action to get that program to the 
same level as the Bureau of Prisons' programs, consistent with 
our expectations and guidelines.
    Again, practice makes perfect. We have been in the drug 
treatment business now for 15, 16 years, and today, to kind of 
put it in perspective, we have 200,000 inmates. About 52 
percent of those inmates we believe we know are in for drug-
related offenses. Of that 52 percent, we believe that about 35 
percent should have drug treatment, drug or alcohol treatment. 
As of today, 92 percent of those offenders are volunteering for 
treatment.
    So over the course of a year, we are running about 15,000 
inmates a year through drug treatment programs, so we get a lot 
of practice. That has allowed our staff to develop and evolve 
into the programs that Congresswoman Norton saw at Cumberland, 
which we think are exceptional. In fact, we are seeing our 
research applicable to the inmates who complete drug treatment 
is very positive. We are seeing fewer offenders come back to 
prison who participate in and successfully complete our 500 
hour drug treatment program, and this recidivism research has 
been ongoing for 10, 12, 15 years now, so it has enormous 
credibility.
    We certainly have an interest in getting the program at 
Rivers up to the same level so that not only will it be 
certified, but when we put offenders there they can qualify, 
those that would qualify, the non-violent offenders that 
qualify could also be offered some time off of their sentence 
based on their participation and successful completion in that 
program.
    Mr. Davis of Illinois. Mr. Snyder, let me ask you, the 
contract with Bureau of Prisons requires Jail to develop a 
specific release plan, which includes a community-based program 
for each inmate no later than 11 months before the inmate's 
projected release. Would you share with us what might be the 
specific components of a typical release plan by Rivers?
    Mr. Snyder. Well, as the Director mentioned, we start 
preparing for an inmate's release the day that they walk in the 
door in looking at what types of programs we may be able to 
enroll them in for that. As we get later on closer to the 
release, we have sessions with them concerning and in 
conjunction with CSOSA who, by the way, as Mr. Quander is going 
to testify later, has been a wonderful partner with us in 
helping develop these plans of release for these inmates.
    So whether it be, for example, our work force transition 
program or helping find jobs through CSOSA or through community 
initiatives that they have, we work in partnership actually 
from day one.
    Mr. Davis of Illinois. And so the development of your plans 
are actually done in concert with other external agencies?
    Mr. Snyder. Partly with external agencies and partly 
internal. We say that the inmate does not have a high school 
diploma. We encourage them to enroll in the GED program, for 
example. That would be something that is not in conjunction 
with another program. But we do work in conjunction with other 
programs, also.
    Mr. Davis of Illinois. Before I go to Representative 
Norton, let me just ask you, both of you are experts. 
Obviously, you have had long careers and would be considered 
experts in this area. In spite of whatever it is that we are 
doing, we are still experiencing extremely high rates of 
recidivism across the board. If you were to say, in your 
estimation, what really could help more to get at this question 
of recidivism? What would that be?
    Mr. Lappin. First and foremost, I don't care where you are, 
you have to have a willing participant. It is just not a one-
sided formula here. We certainly see those offenders that come 
to prison, just like the young man you heard earlier who 
realized that he had some problems in his past that he decided 
it was time to change. It certainly helps our success when we 
have someone who is willing to participate in programs that are 
offered. It is unfortunate sometimes that more of them do not.
    I am not sure about the GEO Group, but we do not force 
inmates into programs other than one program, and that is all 
offenders who are medically cleared will work. If they fail to 
accept a work assignment, they can be disciplined for that.
    We encourage, we leverage, we nudge, we counsel, we push 
them to get involved in GED, secondary education, vocational 
training, and other pro-social value programs. We are quite 
successful with many of them. Some offenders just don't see the 
light.
    It has been helpful, in my opinion, when you all or someone 
has asserted some leverage on them, as well. I will give you a 
couple of examples.
    A few years ago some folks said if offenders don't pursue a 
GED you are not going to get all of your good time. Well, that 
wasn't us leveraging; that was somebody else saying, hey, 
folks, this is so important that you should pursue this, and if 
you don't there are some consequences. So the inmates began to 
see the consequences of decisions they would or would not make. 
That helped.
    Let's go back to the time off for non-violent offenders. 
That certainly encouraged more offenders who were kind of on 
the fence to get involved in drug treatment. Once we get them 
into the program, then it is our responsibility to provide a 
program that meets their needs, addresses those issues, but no 
matter what we do here, if we don't have a willing participant 
our programs will be less successful. Any way to leverage those 
folks into those programs, in my opinion, is helpful.
    Again, I told you just a couple of examples I think that 
are positive.
    Do we have waiting lists? We have waiting lists. I assure 
you today that even though one of our longest waiting lists is 
the RDAP 500 hour, we can still get everyone who needs 
treatment, treatment before they are released. It is probably 
going to occur toward the end of their sentence, because an 
offender comes in and has less time, their name goes above that 
person so that we can get them through the program before the 
end of their sentence. But we can still get every offender 
currently coming into the Bureau through the program. We would 
like to have a shorter waiting list. Certainly, some additional 
resources in that regard would help us get more offenders 
through the process earlier in their sentence than the end of 
their sentence.
    Just a few things.
    Mr. Davis of Illinois. Mr. Snyder.
    Mr. Snyder. Actually, I concur with about everything that 
Director Lappin said. There has to be some individual 
commitment from the inmates, and we need to encourage that 
programs happen there for them to participate in.
    I think there is one other thing we are getting ready to 
roll out. I am not sure we have done the best job. This will 
affect Jail some time down the road. I mentioned our inmate 
skills development program, and basically what we are doing is 
getting ready to ramp up a particular where, when the offender 
comes into the institution they will be assessed, and that 
assessment will determine what skills that offender lacks, and 
every facility will be required to have programs available that 
address those deficiencies we identify in the offender.
    We have not done as good a job in the past as we should 
have, I believe, trying programs to the legitimate needs of the 
inmates. Sometimes it was a little big of guesswork there. What 
do you like to do, what do you want to do, rather than what do 
you need to do. And so in the not-too-distant future when we 
roll this program out, we will do a better job of identifying 
the deficiencies an offender comes to prison with and having 
programs available for them to improve in those areas.
    Again, it requires a willing participant. We don't force 
them into those programs. But we will certainly carry that over 
to our contract with GAO at Rivers if, in fact, we still have 
U.S. citizens at that facility.
    Mr. Davis of Illinois. Gentlemen, thank you very much.
    I will go to Ms. Norton.
    Ms. Norton. Well, thank you very much, Mr. Chairman.
    I suppose I should begin with Mr. Lappin.
    Mr. Lappin, there are about 7,000 or so, give or take, 
inmates, of course, from the District of Columbia, and 
facilities you control. You heard me open saying that they were 
in, according to all the figures we have access to, they were 
in 75 institutions in 33 States. Now, we have some of the 
figures here. For example, there were about 252 or so at 
Cumberland. There are about 800 some at Rivers. That is the 
largest number. There are 314 at Gilmer, about 300 at Coleman, 
309 at Beach Sandy; 100 at Butner, 80 at Cleary; 50 at 
Lexington. These are all over the United States, of course. 
There are 12 at Ashland.
    Now, what I have just detailed, just nine institutions, 
that accounts for 1,728 D.C. inmates, plus the 831 at Rivers or 
2,559 inmates.
    These are where most of them apparently are. That means the 
great bulk of the mare in dips and dabs somewhere out in the 
United States. So few that, when you look for where they are, 
they don't even register.
    You are world class prison experts. Do you believe this is 
the best way to house prisoners from a State prison system, 
spreading them far and wide this way out of the reach of family 
or anyone else you they know?
    Mr. Lappin. Actually, we can provide you a list specific to 
which institutions house D.C. offenders and how many. It is 
going to vary.
    Ms. Norton. We have been provided with that list, and I 
have gone through where the bulk of them are, and most of them 
are still scattered in smaller numbers here and there. I want 
to know how you decide where to place D.C. residents.
    Mr. Lappin. Not unlike other residents, we try to put the 
offender as close to home as we possibly can, with a couple of 
priorities. No. 1, the appropriate security level is No. 1. The 
first issue is what is the security level of the offender, and 
we try to put them as close to home based on that, if we can, 
we space available. Because you can imagine, at the hose 
institutions there are also offenders at those locations in 
close proximity to that facility, as well.
    So in reality there are many, many offenders in the Federal 
prison system who are further from home than what you are going 
to find in State facilities, given the fact that we have some 
States and some geographic areas with no Federal prisons, and 
those offenders are going to go to prison in some location.
    Ms. Norton. Although they would seldom be halfway across 
the country. They are located in most regions of the United 
States.
    Mr. Lappin. Of the D.C. offenders, 83 percent are within 
500 miles, which is kind of our target, 500 miles or less. The 
exceptions to those would be offenders who have medical or 
psychiatric illnesses that must be provided for in a hospital, 
and those folks are going to go to one of our medical centers.
    We then have offenders who have separate issues; that is, 
they have either testified or have some conflict with other 
offenders in the Bureau of Prisons, and therefore we have to 
put them at other locations as a safety security issue.
    And then we have offenders who misbehave, and oftentimes 
when they misbehave it results in them being moved further from 
Washington, DC.
    Again, I think hopefully you will understand that many of 
the Federal offenders, when you look at how far away they are 
from home, are further from home than what most State offenders 
would be.
    Ms. Norton. I understand that, Mr. Lappin.
    Mr. Lappin, Congress has given the Bureau of Prisons a big 
challenge and didn't give you all that you were entitled to, 
but it asked you to do what has never been done before, and 
that is absorb a State prison system. Whatever is the case, it 
said integrate them but remember who they are. As a result, 
essentially what you have had to do is to deal with your 
existing resources to try to place them accordingly.
    Quite apart from what you were left to do, would it not be 
your opinion that the inmates from a State prison system would 
be better off if they could be housed in a facility, since 
there are 7,000 of them, enough to fill a facility, that was 
closer to the District of Columbia, quite apart from what is 
possible? You are not in charge of what is possible and I am 
not in charge of what is possible. A lot of that has to do with 
money. I am asking you and I am going to ask Mr. Snyder as 
corrections experts to say, if you are dealing with a State 
prison system and you know how State prison systems operate and 
you know where prisoners are placed in States, so I am asking 
you would it be, if all things were equal, better for these 
prisoners to be housed in a facility closer to their home base?
    Mr. Lappin. In my opinion, I am not sure that it would be. 
Maybe this is just a difference philosophically on how to 
safely run prisons, but we believe we run safer prisons when we 
have a balanced population of offenders racially, as 
geographically as we can, but primarily racially, so we have 
found ourselves----
    Ms. Norton. Who are you fooling, Mr. Lappin? Mr. Lappin, 
almost 50 percent of those in prison today are African 
Americans. Good luck for your balance. You just said that you 
have to look at the features having to do with the nature of 
the offense, etc. Moreover, everybody knows that what happens 
in schools--which is kids bunched together based on race--
happens much more so in the prison environment. So this notion 
about racial notion when you have a prison system in the United 
States largely controlled people of color it is not going to 
wash with this Member. I am not even asking you that.
    I am saying, considering that these are State prisoners, 
and again, you know, if you want to tell me what the Federal 
Government does, fine. I have asked you to speak as a 
correction expert, and I am not asking you to contradict 
administration policy or any such thing. If you can't take your 
hat off as a corrections expert and answer my question, I will 
just go on to the next one.
    Mr. Lappin. I can answer your question.
    Ms. Norton. Yes, sir.
    Mr. Lappin. Of our inmates, 56 percent are White, 40 
percent of our inmates are African American, 27 percent of our 
offenders are Hispanic. We can create balance in our 
institutions. From my position and for my 22 years in the 
Federal prison system, I have found us running safer----
    Ms. Norton. What is the racial----
    Mr. Lappin [continuing]. And more secure prisons----
    Ms. Norton. What is the racial composition----
    Mr. Lappin [continuing]. When we have a balanced 
institution.
    Ms. Norton. What is the racial composition at Cumberland 
and what is the racial----
    Mr. Lappin. I don't know exactly what it is, but we 
certainly try to monitor that as best we can to have a more 
balanced population of offenders racially----
    Ms. Norton. I am going to move on.
    Mr. Lappin [continuing]. At the institution.
    Ms. Norton. I am really going to move on, because I tell 
you one thing: one of the things that hurts most for somebody 
like me who comes from a majority African American city and 
sees the waste of Black men in jail is the notion of the kind 
of imbalance that neither you nor anybody else could do 
anything about until we do something about the march of African 
American manhood into State and Federal prisons.
    I am looking at the characteristics here, and this is 
Cumberland: 72.2 percent Black, 1.5 percent other, and 26.3 
percent White. That is not your fault, but the notion to tell 
me that therefore what we are trying to do is racial balance, 
when I ask you as a corrections expert and not what you do 
within the Federal prisons, does not respond to my question. 
But if you cannot speak as a correction expert, I am holding 
the hammer at that point and I just want to get to some facts 
here.
    I am not going to ask Mr. Snyder, who has a contract, and 
therefore may feel that he had better watch himself.
    Let me just say that this Member has looked at prison 
systems around the world and I happen to believe that the 
Bureau of Prisons is the best prison system in the world. When 
was the BOP started as a system?
    Mr. Lappin. In 1930.
    Ms. Norton. It was started perhaps in the Depression when 
people were willing to build prisons and there was a kind of 
rehabilitation view of corrections. You know, you are talking 
to somebody who has great respect for BOP, particularly when 
compared to State prison systems, like Lorton was for the most 
part. So when the District asked the Federal Government to take 
some State functions and it turned out the BOP and we knew they 
were going to be scattered, the good news at least was, well, 
at least they have access to services they never could have 
gotten at Lorton.
    You have described at pages 5 and 6 some very good what you 
call core inmate programs, and they are really exceptional work 
programs, occupational training, vocational training, substance 
abuse. I think I am looking at yours. Yes, substance abuse, 
observance of faith, psychology services, etc. When you let the 
contract initially for District of Columbia residents, did you 
follow this core set of services in putting out the contract 
and funding the contract for the private contractor?
    Mr. Lappin. You are asking me?
    Ms. Norton. Yes.
    Mr. Lappin. I don't know what occurred at the time this 
contract was let specifically. What I did was compared the 
contract to what we were providing in our institutions. My 
sense is this contract for Rivers was more consistent with 
contracts we had been offering at our other private contract 
facilities that primarily house illegal aliens. So in my 
evaluation----
    Ms. Norton. Do you think illegal aliens are entitled to the 
same services as American citizens?
    Mr. Lappin. Obviously, our contracts at the private 
contract facilities do not offer the same level of services 
that we are providing in our own institutions that primarily 
house U.S. citizens.
    Ms. Norton. I am talking now about the Rivers contract.
    Mr. Lappin. I think it was more consistent with those 
contracts rather than one that would specifically address these 
issues.
    Ms. Norton. Well, why wasn't it, since most of the inmates 
are American citizens, why wasn't it based on the BOP model as 
opposed to the criminal alien model?
    Mr. Lappin. I don't know for sure why. That is why I 
mentioned in my opening testimony that we had gone back----
    Ms. Norton. You are aware that the statute does not say, in 
prescribing what has now been abandoned by BOP and the Federal 
Government, that is that some residents would go into private 
facilities, it says nothing about those facilities being of a 
lesser quality or different in any way from BOP services. That 
is not in the statute, is it?
    Mr. Lappin. No, it is not.
    Ms. Norton. You say, indeed--and I was pleased in your 
testimony--that you have recently asked GEO Group to increase 
programming at these facilities. Will that programming reflect 
your own model, the BOP model that you tout around the country 
with good reason, indeed around the world, as a model for how 
corrections should be done?
    Mr. Lappin. As I indicated, yes, we are working with Jail, 
who is working with CSOSA, on identifying what vocational 
trainings would be appropriate, and we will be working----
    Ms. Norton. No, I am asking you whether you will mirror 
what you do.
    Mr. Lappin. As closely as possible, but, again, we don't 
tell the contractor exactly how to do----
    Ms. Norton. I am not asking you how to do. If you have--and 
I am using your words--a core set of programs, these are 
American citizens. Are they not entitled to the same core set 
of programs as other American citizens? And is there anything 
in the statute that would exempt them from what other American 
citizens in prisons are entitled to, in BOP prisons are 
entitled to?
    Mr. Lappin. Again, we will try to mirror as closely as we 
can the programs we offer in the Bureau.
    Ms. Norton. When you put the contract out, the contract was 
not funded for these services.
    Mr. Lappin. I think many of the things that are listed here 
the GEO Group already does at Rivers.
    Ms. Norton. What? I am sorry.
    Mr. Lappin. I believe many of the things we have listed 
here the GEO Group already provides in the current contract. 
The areas that we found were lacking was vocational training 
and the certification of the drug treatment, but many of the 
programs you have mentioned here--observance of faith and 
religion, psychological services, visiting, telephone, 
correspondence--many of those things are already in the 
contract and, according to our monitoring, the GEO Group is 
already providing.
    Ms. Norton. Yes, we are aware of the ones that are in the 
contract and we are aware that some of them have been added on 
in time, and we are very grateful for that, but you are 
testifying that you intend, to the greatest extent possible, to 
mirror the core program of the BOP for the American citizens 
who are confined in private facilities; is that your testimony?
    Mr. Lappin. Yes, ma'am.
    Mr. Davis of Illinois. Ms. Norton, let me do this. Let me 
go to Mr. Clay, who has some questions, and then we can 
certainly come back to you.
    Ms. Norton. Thank you, sir. Glad to yield.
    Mr. Clay. Thank you, Mr. Chair. It is always interesting to 
follow my colleague, the gentlewoman from the District of 
Columbia. She always has intriguing questions.
    Mr. Lappin, let me ask you your followup to one of her 
questions. In regard to BOP, are there any plans on the drawing 
board to build a facility or to contract out and have a 
facility built in the D.C. metropolitan area for D.C. 
prisoners?
    Mr. Lappin. There are no plans at the present time.
    Mr. Clay. Do you plan on having a 10-year plan, 5 year plan 
to increase capacity?
    Mr. Lappin. We do have a plan for increasing capacity. To 
be quite honest with you, we don't get a lot of say in where 
prisons are built, so it oftentimes takes a lot of partnership 
with the Congress, the administration. So we have a 
construction plan to keep up with the growing population. As 
you know as well as I do, there are a lot of priorities right 
now and it is not easy to come up with funding to build 
prisons, but certainly there is a plan. There are issues being 
addressed at the appropriate times with the appropriators about 
our needs for the future. But certainly there is a building 
plan based on our population projections over the next 3 or 4 
years which we believe will, if things stay as they currently 
are today, will add about 15,000 inmates over the next 3 years 
to the Bureau of Prisons.
    Mr. Clay. I really hope you are wrong about that.
    Mr. Lappin. I do, too.
    Mr. Clay. What region has the most need? Is it east, west, 
north, south?
    Mr. Lappin. The east, the west, and the southeast probably 
we see our greatest need, but it varies from time to time, but 
those typically are the areas that we have the greatest need, 
because we prefer to put institutions in close proximity to 
where the inmates are coming from, which increases our ability 
to keep them closer to home.
    Mr. Clay. Yes. In the area of reentry, the 8th Circuit, 
which is based in St. Louis, their Office of Probation and 
Parole, in conjunction with the U.S. Attorney's Office, has a 
unique program as far as matching up those recently released 
and future employers. They hold a career fair for those 
recently released and match them into jobs. How successful has 
BOP been in matching up recently released inmates? And do you 
do programs like that in this region?
    Mr. Lappin. Actually, we partner with the folks in St. 
Louis nationally on offender work force development. That is 
the initiative you are referencing.
    Mr. Clay. Yes.
    Mr. Lappin. So yearly there is a conference that we 
participate with the probations staff, with parole staff, with 
our staff in developing programs at all of our institutions 
that assist in transition from prison to the community, one of 
which is work force development initiatives.
    All of our institutions have job fairs so employers can 
come in and inmates can be interviewed and resumes can be 
reviewed, more in the way of a practice because, again, many of 
our offenders are not releasing locally. So the difficult 
challenge here is reaching out from a distance to find 
providers in certain areas. We have community corrections 
centers in many locations that help us with the transition from 
prison to the community through halfway houses. The young man 
that was here was in a halfway house here in the District of 
Columbia. They suggested he go to Goodwill and apply for a job. 
That occurs in that fashion more so than from the individual 
institution, given the fact that oftentimes the offender is 
some distance from their home.
    But, again, there is a correction between the staff in our 
institutions and what the inmates' needs are, what their 
accomplishments are, and the transition to halfway houses.
    Our preference is to send all eligible offenders out 
through halfway houses, so this past year, of the eligible 
offenders, about 84 percent of the offenders did transition out 
through a halfway house, which helped facilitate that 
transition from prison to the community to secure two real 
important aspects: a place to live, and a job.
    Mr. Clay. Yes.
    Mr. Lappin. Critically important.
    So, again, the Bureau, given its size, geographically uses 
these transition halfway house centers to assist us with that.
    Mr. Clay. And all halfway house residents have to be 
employed? Is that right?
    Mr. Lappin. Well, we certainly do our best. As you can 
imagine, when unemployment rates are high, it is more 
difficult, but we certainly, as part of that period of time in 
a halfway house, a primary component of that halfway house is 
to try and secure employment prior to release.
    Mr. Clay. Thank you for that.
    Mr. Snyder, real quickly, how successful is jail in placing 
inmates into employment opportunities?
    Mr. Snyder. Actually, our facility is not responsible. We 
work in conjunction with CSOSA and they handle the placement.
    Mr. Clay. Who is CSOSA?
    Mr. Snyder. Court Services and Offender Supervision Agency.
    Mr. Clay. I see.
    Mr. Snyder. And they will be testifying later.
    Mr. Clay. Let me ask you about your drug treatment program. 
How often do you find inmates that test positive for drug use 
in the institution?
    Mr. Snyder. We do random drug testing, and we have less 
than 1 percent positive drug testing rate. In comparison, that 
is very good.
    Mr. Clay. What is your testing matrix?
    Mr. Snyder. Last year in 2006 we did 100,945 random tests. 
We had 1,088 positive tests for a percentage of 1.1 percent of 
our population. We did 21,097 suspect tests; that is, something 
led us to believe the offender was using drugs, the inmate. Of 
those, 900 were tested positive, which is a 4.3 percent 
positive test rate. So a 1 to 2 percent rate is very good.
    Mr. Clay. I see.
    Mr. Snyder. Very low.
    Mr. Clay. All right. I thank you both for your answers.
    I yield back, Mr. Chairman.
    Mr. Davis of Illinois. Thank you, Mr. Clay.
    Let me just ask Director Lappin, did I understand that you 
are working on a good time policy for individuals who may be 
involved in or who complete the drug program?
    Mr. Lappin. The time off?
    Mr. Davis of Illinois. Yes.
    Mr. Lappin. Yes. On May 24, 2005, the D.C. City Council 
passed the Omnibus Public Safety Ex-Offender Sufficiency Reform 
Amendment Act of 2004, which granted the authority for non-
violent D.C. offenders who successfully complete 500 hour D.C. 
treatment program eligibility for time off their sentence. We 
have now taken that through the rules process. We have drafted 
the final rules. The final rule, in fact, is at OMB for review. 
They should decide by October 20, 2007, next week or this week, 
at which time, assuming no concern on their part, we would then 
publish the final rule, we would finalize our program statement 
and we would begin the implementation of that law for D.C. 
offenders.
    Mr. Davis of Illinois. Does that mean that there are other 
kinds of good time policies within the Bureau? I am saying are 
there other incentives for individuals who have gone through 
any kind of special program or special training or anything 
else?
    Mr. Lappin. To my knowledge, this is the only program that 
offers a reduction in their sentence other than the authority 
of the Director of the Bureau of Prisons to allow or propose to 
the sentencing court a reduction of sentence typically based on 
terminal illnesses or some significant health concern or issue, 
which we do utilize. To my knowledge, those are the only two 
that allow a ``reduction in sentence.'' Most all offenders are 
eligible for good time. That is typically driven by the statute 
under which they are sentenced, so it would be different for 
D.C. offenders possibly than offenders from Federal correct. I 
don't know the specifics of those, but as far as something 
similar to the reduction of sentence consistent with the 500 
hour drug program, I am not sure. I am not aware of any other 
programs that offer some reduction in sentence other than the 
two I mentioned.
    Mr. Davis of Illinois. Is any crime committed in D.C. a 
Federal crime?
    Mr. Lappin. I am sorry?
    Mr. Davis of Illinois. Is any crime committed in the 
District of Columbia a Federal crime?
    Mr. Lappin. Yes. I have the number here, I believe. I could 
give you the exact number of offenders who are sentenced out of 
District Court, but I believe there are about 1,100. I think 
there are about 1,100 offenders who come out of District court. 
Of the 7,816 D.C. offenders, as of August, 6,698 were sentenced 
in D.C. Superior Court, 1,118 were sentenced as a result of 
Federal crimes out of U.S. District Court.
    Mr. Davis of Illinois. Thank you.
    Ms. Norton.
    Ms. Norton. Mr. Lappin, how many Federal facilities, BOP 
facilities, have been built since 1997, approximately?
    Mr. Lappin. I hate to guess. I will get it for the record 
and submit it to you in writing.
    I hate to even guess. Probably 30 or 40.
    Ms. Norton. Has the BOP ever, given its corrections 
background, suggested to OMB that one of those prisons might be 
built to house D.C. residents? That is a lot of prisons.
    Mr. Lappin. We have tried to place institutions closer to 
Washington, DC.
    Ms. Norton. That is not my question.
    Mr. Lappin. We have not asked or pursued an initiative to 
build a prison to house just D.C. offenders. We have not.
    Ms. Norton. That was really my question.
    You see, the figures I laid out before when you tried to 
tell me they were all about balance, where we had 2,559 inmates 
in 10 institutions, understand they are in 75, sir. If there 
are 2,559 in 10 institutions, that means that there are 5,441 
in 65 institutions. You have to understand what my point is, 
sir. Whatever the balance point is, since the figures that I 
called out were where you will find them in any numbers, it 
really means sprinklings of men around the United States. I 
just want you to know that is my concern, and that is why I 
asked how many prisons since 1997.
    How many prisons have been built since 1986 when the 
mandatory minimums which have incarcerated an entire generation 
of Black men, how many prisons since then have been built?
    Mr. Lappin. Again, I could submit that for the record. I 
know that in 1980 we had about 26,000 inmates in the Federal 
prison system. We operated about 35 institutions. Today we have 
200,000 inmates. We operate 114 Federal prisons that we own and 
operate, and we contract out for 13 other private facilities.
    Ms. Norton. Now, for criminal aliens--and yet District of 
Columbia residents are the only American citizens in such 
private facilities.
    Mr. Lappin. Again, as you know, the law that passed in 1997 
mandated----
    Ms. Norton. It did not mandate and it was not necessary to 
put D.C. residents in a prison with criminal aliens where you 
know you do not have to provide the same services. It said 
private facility. It said Bureau of Prisons. It says these are 
inmates.
    The fact that you have 800 in a private facility means it 
was in your discretion to fill it up with D.C. residents, but 
you did not do so, and that raises the problem. If you are an 
American citizen living in the District of Columbia, you get 
tired of not having rights even when you go to jail, sir, 
particularly when it was in your discretion, your, BOP at 
large, discretion to do something about it, and particularly 
since these men have to come home to the District of Columbia.
    I am here trying to divide what we have to do, sir. I know 
I have a lot of work to do to convince my colleagues, and what 
you, it seems to me, had at least some discretion to recommend.
    Again, this is a grand experiment. The Congress has said, 
look, BOP, you are a great prison system. We are going to ask 
you to do something that has never been done before. Therefore, 
Congress looks to you to say, can this be done? Can it be done 
better? That is what I am impressing upon you that we need to 
have happen.
    I want to ask you about the testimony you heard from the 
prisons, the ex-prisoners. It was important in reinforcing what 
we saw when we went to the two prisons. I said they were both 
well-kept. Everybody felt free to come up and talk to me. There 
was a marked difference in the activities available. Let's 
leave aside the services for a moment. The BOP prisoners had 
not only structure but had times when they went from one place 
to the next place, and it looks like the BOP has a theory of 
corrections that says that you let a man lie around doing what 
we would all like to do--what would you like to do today? Sit 
in a hearing, or would you like to hang out? Sir, I would hang 
out, and I have been working all my life.
    Do you say to somebody, hey, here's a nice facility, here 
is a gym. They hang out in your private facility, but Mr. 
Robinson, I believe it was, testified that he was in a very 
structured environment, that he had to work, and of course he 
has work now. You saw Mr. Barnes, a young man, obviously very 
self-motivated early in life, very intelligent, already could 
pick up a craft, talk about what it was like to be in an 
unstructured environment.
    Why, given the fact that the BOP model is tried, has been 
tested, is seen as one of the most effective in the world, why 
would you not try to replicate at least the structure, which 
you could have done even if you didn't have the money, at least 
the structured environment that leaves a man or woman to have 
some sense of what is going to be expected of him out here. Why 
was that model abandoned in the private facility at Rivers?
    Mr. Lappin. I don't think that model was abandoned. I am 
very pleased that you had a good visit to the institution in 
Cumberland and you left there pleased that the inmates were 
productively occupied. That certainly is a mainstay in our 
safely running prisons.
    Again, I don't think the contract at Rivers didn't take 
that into consideration. I think it did. Other than----
    Ms. Norton. I really don't want to argue the facts here. I 
don't have a lot of time. The facts are that most of the 
inmates--and you heard testimony here, we saw it ourselves--
spend most of their time on weights and in the yard, and we 
don't blame them. Men will not engage in structured activities, 
even when they are available, unless you draw the incentives 
such that they really think that this is what we are supposed 
to do. Of course, men have to work in BOP facilities. You don't 
have to work there, so please don't make me lay out not what I 
saw but what I have documented as to the difference between the 
unstructured environment at the private facility which is 180 
degrees unlike what the inmate will find out here and the very 
structured way in which he must live his life in a BOP 
facility, because I saw it. We documented it. I didn't just go 
there. I asked questions--how many hours they have to work, 
what if they decide not to do this, then what do they do. I got 
very specific answers from the warden.
    Now I am asking one question only: if structure works in a 
BOP facility, why would you, in putting out a contract, not say 
do it the way you want to do, but the structured life is 
necessary to prepare these men that you are going to get to 
enter the real world.
    Mr. Lappin. Again, I think our contract that was let at 
Rivers has that framework. Our contract oversight folks who are 
there routinely throughout the course of the contract observe 
that behavior. Granted, there can be improvements, but I beg to 
differ that we have completely abandoned that theory or 
philosophy in the contract.
    Again, the warden here can address probably those day-to-
day issues that----
    Ms. Norton. You know, I really don't want to keep us here.
    Mr. Snyder, does a man, besides the GED program, is he 
compelled to work, for example?
    Mr. Snyder. Yes, ma'am. They are required to work in our 
facility.
    Ms. Norton. What are their work assignments for how many 
hours a day?
    Mr. Snyder. Again, like many BOP facilities, it may be a 
short period of time, 4 hours. They may work 4 hours and may be 
enrolled in some other program for 4 hours.
    Ms. Norton. You know what, Mr. Snyder, I talked to lots of 
men down there. None told us that he had any assignment 
whatsoever. Now you are telling me that every man at Rivers has 
a work assignment?
    Mr. Snyder. Yes, ma'am, the majority do.
    Ms. Norton. I am going to ask you to submit to the 
committee what my own eyes contradicted, what you heard the 
prisoner, the ex-offender testify. I want you to submit to me 
the work day of prisoners. I want you to submit to me how your 
program is structured on paper. I would like to see that.
    Mr. Snyder. I can submit to you the number of inmates that 
we have working in the facility.
    Ms. Norton. You just said these people have every inmate 
working.
    Mr. Snyder. Well, the majority----
    Ms. Norton. Now, we saw some people working.
    Mr. Snyder. Yes.
    Ms. Norton. We know that there are some people who work. 
Everybody at the BOP facility we saw. In fact, if you want to 
know the truth, Mr. Lappin, the warden told us that it 
sometimes gets to be difficult because the facility has so many 
people coming in and so much work to do, but they still say you 
have to put 4 hours in to work. That is what you told me. You 
have to put 4 hours in to work, every last man at Rivers?
    Mr. Snyder. The vast majority. Yes, ma'am.
    Ms. Norton. Four hours of work a day?
    Mr. Snyder. Yes, ma'am.
    Ms. Norton. Forgive my skepticism, but you are under oath.
    Mr. Snyder. Yes, ma'am.
    Ms. Norton. Let me quickly go through the rest of this, 
because we have just heard testimony that this is just like 
BOP, which contradicts what we saw with our naked eyes. How in 
the world are we going to improve things if we get this kind of 
testimony?
    Now, you have programs in carpentry, HVAC. We are glad to 
see the air conditioning and the heating. But then you heard 
testimony from a prisoner that it was limited by age. Why is it 
limited by age? Indeed, Mr. Robinson said it was not limited by 
age at BOP, but of course these programs are exactly the same. 
Why was it not limited by age at the BOP prison where he also 
had that training and it was limited by age at Rivers?
    Mr. Snyder. I can only speak to the program at Rivers. I am 
not familiar with----
    Ms. Norton. That is all I am asking you for.
    Mr. Snyder. Yes, ma'am. The program at Rivers is a grant 
program through the D.C. State Department of Education, and 
through that grant the ages of participants must be in the age 
range of 18 to 25.
    Ms. Norton. But that is not true, Mr. Lappin, at the BOP 
HVAC program?
    Mr. Lappin. I am not aware of a limitation on age; however, 
we provide programs located at institutions that sometimes have 
some limitations. That is, we contract out at some locations 
for those services. Although I have not seen an age limitation, 
there are sometimes some limitations based on what is agreed to 
within that local contract. If it is a Bureau-provided program 
by Bureau staff, we do not limit age.
    Ms. Norton. Almost all your programs are Bureau provided, 
though.
    Mr. Lappin. We have a number of locations where we contract 
out vocational training programs because there is a community 
college or some service locally that really offers a great deal 
for us. That is how you heard testimony that some locations we 
still can offer college programs. It is only because we can get 
those programs locally.
    Ms. Norton. College programs I understand, because Congress 
has put some limitations on you there.
    Mr. Lappin. Right.
    Ms. Norton. Mr. Snyder, do the criminal aliens have access 
to the same programs?
    Mr. Snyder. Yes, they do.
    Ms. Norton. I have nothing against criminal aliens, God 
bless them, but I hope I made my point. I would not like to see 
any discrimination against them. Who has been discriminated 
against? The D.C. residents who are American citizens who would 
get different levels of services if they were in BOP 
facilities.
    We were very disappointed to find out all the time it has 
taken for D.C. to be qualified for the incentive, and now that 
processes you are assuring me is well under way, so when you 
are going through that program, that 500 hour program, that 
incentive, which has apparently been useful to making the 
program so effective, would be available then.
    Since we have composed a final rule, you say on page none 
of your testimony, and will publish the rule in conjunction 
with issuing our own updated policy, which is currently in the 
final review and clearance process, in light of the fact that 
we think this should have been the case from the beginning, and 
if not it should certainly, given the effectiveness of the 
program, should by now be operative, in light of the fact that 
the proposed rule to implement the law was published a year ago 
in November, or almost a year ago, November 2006, that the 
Council made the necessary changes in 2004, I have to ask you, 
given the vagueness of the language, to testify when this 
policy will finally be operative.
    Mr. Lappin. Again, we will implement it as soon as we hear 
from OMB and we can finalize the--I don't have the date this 
will go into effect until I get the information back from OMB.
    Ms. Norton. So you have done all you can do?
    Mr. Lappin. We have done all that we can do until we hear 
back from OMB. At this point----
    Ms. Norton. One thing we would like you to do is to urge 
OMB, and we will back you up on that, sir.
    Mr. Lappin. And I will report to you as soon as I hear back 
from them the status. Once I have that back, I can better give 
you a time line for when we will implement this Bureau-wide.
    Ms. Norton. We are particularly concerned to get the 500 
hour program, the certified program, at Rivers. Can we 
anticipate that program will be available at Rivers?
    Mr. Lappin. Yes.
    Ms. Norton. The one with the incentive?
    Mr. Lappin. The vocational training, as I mentioned, and 
the drug treatment program, we are going to address at Rivers 
through the contract. Again, we will keep you informed as to 
how that progresses.
    Ms. Norton. That is so important, and I thank you for the, 
Mr. Lappin. You speak it is about 50 to 80 percent having drug 
abuse problems, a great concern to us. Particularly of concern 
to us was that 65 percent of those whose parole is revoked are 
revoked on drug abuse problems, so the effectiveness of that 
program could not be more important.
    I am concerned about some of the HVAC programs, the 
carpentry programs, not because they aren't excellent programs, 
but if they are certified through the Department of Labor, then 
a man or woman can perhaps expect to be at least recognized 
because he will be able to say I have been through this 
program. I am concerned whether or not persons are able to say 
something, to have a piece of paper to show that Prison 
Industries has a very good reputation, has certified them as 
being able to do X, Y, or Z, whether it is HVAC, carpentry, or 
any of the rest of it. Is that available?
    Mr. Lappin. We make a point that those vocational programs 
we provide, to have some type of certification. I want to be 
careful on this, because there are varying types of 
certifications. Let's take the DOL apprenticeship program. 
There are many locations we don't offer that, not because we 
don't think it is a good program, it just takes thousands of 
hours for the offender to become certified in that program.
    Ms. Norton. Yes.
    Mr. Lappin. Like at Rivers, the offenders on average spend 
about 2 years. Most of them, if they began that program, 
probably wouldn't be able to finish it, so we look for other 
programs that are shorter in nature that give them some type of 
certificate so that when they leave prison and they go to apply 
for a job they have a document that says yes, I have had this 
training in this program to this level of proficiency. So we 
try to gear those programs and the length of those programs 
based on the amount of time we believe the offenders at a given 
institution on average are going to spend at that facility so 
that we can get more people through and have them with the 
certificate upon release.
    In your medium- and high-security institutions where 
offenders are serving a longer time, you will find a greater 
array of the DOL apprenticeship programs, because many of those 
offenders are spending a long enough time in prison that if 
they begin the program they can finish it before they are 
released.
    Ms. Norton. Makes sense.
    Our figures show that for BOP low-security inmates, it 
costs the BOP $52.57 per day. At the Rivers low-security 
program it costs $67.36 per day. Is that approximately correct?
    Mr. Lappin. I didn't hear the last figure.
    Ms. Norton. It is $52.57 for low-security BOP, $67.36 per 
day for Rivers low-security. Is that the case?
    Mr. Lappin. Let me give you the number that I use publicly, 
because there is sometimes two numbers floating around. Our 
average cost per day for low-security inmates in the Federal 
prison system is $57.08. That is all-inclusive. That is 
overhead, training, administrative staff, everything that goes 
into housing that inmate, including central office costs, 
everything--$57.08. I believe the contract at Rivers is $72.
    Ms. Norton. OK, because obviously the private contractor--
--
    Mr. Lappin. It is $72.23 per inmate per day.
    Ms. Norton. So $72.23, so if we could get past the capital 
cost and we were just looking at the efficiency of the BOP 
operation, you have a more efficient operation than private 
contractors have, because he has to build in the cost, the 
capital cost, and he's got to have a profit and the rest of it.
    Mr. Lappin. But I think you have to realize, I mean, I am 
averaging thousands of inmates in this average.
    Ms. Norton. I certainly do recognize that. That is one of 
the reasons you are more efficient. The more you have, the more 
you are able to have the efficiencies that come with the large 
numbers.
    Mr. Lappin. There are some variations geographically, 
though, that we have to acknowledge, some higher-cost of living 
areas where it is more expensive to run prisons than other 
locations.
    Ms. Norton. I understand. If you want to play down your own 
efficiency, you are welcome. I am talking about efficiencies of 
scale, and that is all I am talking about. That is something 
that you don't have any control over. That is why I read you 
the raw statistics.
    Finally, let me ask you what is the profit margin for the 
Jail Corp., which is the corporation that, of course, built 
Rivers?
    Mr. Lappin. Are you asking me?
    Ms. Norton. You or Mr. Snyder. You ought to know it as much 
as Mr. Snyder knows.
    Mr. Lappin. What their profit margin is?
    Ms. Norton. Yes.
    Mr. Lappin. I have no idea.
    Ms. Norton. That is not built into the contract?
    Mr. Lappin. I have no idea.
    Ms. Norton. So they can make any amount of profit they want 
to?
    Mr. Lappin. Again, I have no idea what their profit margin 
is.
    Ms. Norton. Mr. Snyder.
    Mr. Snyder. I am unaware of our profit margin at this 
point.
    Ms. Norton. Could I ask you, Mr. Lappin, to get that 
information to me? I don't think that contracts let out by the 
Federal Government say you can make whatever profit you want to 
from housing these Federal prisoners. If they are, then the 
Congress needs to know if that is the case.
    Mr. Lappin. If that information is available to us, we will 
certainly provide it to you.
    Ms. Norton. Well, it has to be available to somebody in the 
BOP.
    Mr. Lappin. I am not sure that it is. I am not sure it is 
stipulated in our contract what the profit margin is.
    Ms. Norton. So you are therefore testifying that profit 
doesn't matter to you and you can make any profit you desire so 
long as you give us a facility?
    Mr. Lappin. It is competitive bid.
    Ms. Norton. I understand that. I am talking about profit. I 
am talking about profit.
    Mr. Lappin. If there is a profit margin available, we will 
provide it to you.
    Ms. Norton. Mr. Snyder, you know more. You are closer to 
the profit margin than even Mr. Lappin. These are 100 percent 
Federal dollars. Within 30 days we want to know what the profit 
margin is.
    One final question. It has to do with phone calls. How much 
does it cost in a Federal prison to make a phone call, or how 
do you calculate those costs?
    Mr. Lappin. I don't have the exact numbers. I will provide 
them on the record, what our charges are nationally for phone 
calls throughout the Bureau to the inmates.
    Ms. Norton. If phones are to be used in a private facility, 
would there be a profit available to the facility for allowing 
the calls to be made, or would that facility have phone calls 
available in the same way and for the same cost to the prisoner 
as a BOP facility?
    Mr. Lappin. Again, I would have to go back and look at the 
contract, what it says specific to phone calls. My guess is it 
is pretty broad and says phones will be made available to the 
inmates. How those costs are determined, I am not sure. If it 
is in our contract I will provide to you specifically what the 
contract indicates regarding their applying that aspect of the 
contract to housing those offenders there, and I will provide 
to you our charges to offenders for phone calls in the Bureau 
of Prisons.
    Ms. Norton. It is very important to have that within 30 
days.
    Mr. Chairman, I appreciate the latitude you have given me 
in examining these witnesses. They have really been very 
helpful. The testimony we have heard seems to me, to summarize, 
to say that the BOP is now trying to bring the same services to 
the private facility where D.C. residents are housed as they 
would have if they just happened to be in a low-security, for 
example, public facility. Sir, subject to what we learn about 
structure, we will take that to mean that the same kind of 
structure imitation of the way life is in the real world we 
will obtain at Rivers, as well.
    Thank you very much, Mr. Chairman.
    Mr. Davis of Illinois. Thank you very much, Ms. Norton.
    I see we have been joined by Mr. Cummings.
    Mr. Cummings, do you have any questions of this panel?
    Mr. Cummings. Just a few. Just a few, Mr. Chairman. I am 
sorry. I was in another hearing.
    I just am curious. I was just sitting here just thinking 
how we have folks who go to prison and it is like they go in 
and in many instances they come out worse off. I am just 
wondering, at your facility, Mr. Snyder, and to you, Mr. 
Lappin, is there any followup on say, for example, they get 
this training, and is there any followup on how they do in 
life? I mean, it may have been answered earlier. I don't know. 
Is there any followup on that, because it seems to me that if 
we are going to be paying for these various courses that I see 
listed here, that we would want computer classes, woodworking, 
heating and air conditioning. It seems as if we would want to 
see how our money is being spent, so when you followup on it 
what do you come up with?
    Mr. Lappin. The Bureau of Prisons does recidivism research 
on all of the programs we offer, not specifically every VT, but 
VT programs in general, as well as GED, inmates who work in 
Federal prison industry, inmates who we do recidivism research 
to determine if, in fact, the programs we are offering are 
having the intended outcome--that is, reducing recidivism.
    Mr. Cummings. Right.
    Mr. Lappin. Nationally the Federal recidivism rate, our 
Federal recidivism rate is 40 percent within the Federal 
system, which in the last 10 years came down from 44 percent, 
so we went from 44 percent to 40 percent in about the last 10 
years. We see that certainly as very favorable.
    I couldn't agree with you more: when we invest money in 
programs, we want to be assured that those programs are having 
the intended outcome. So in groups like this--vocational 
training, prison industry, GED--we do long-term recidivism 
research assessment. And if we find a program is not having the 
intended outcome, we discontinue that program.
    I will give you an example. For 10 or 15 years we operated 
boot camps. Our research for 10 of those years reflected no 
impact on recidivism for the offenders identified who 
participate in that program. We brought those types of programs 
to an end. We were not getting the intended value, the outcome 
we desired based on the investment. That is the way we continue 
to assess our programs. So today, besides these programs, we 
have faith-based residential programs, we have other pro-social 
value programs. I have the acronyms. You don't know what they 
mean, but basically the residential programs that target anger 
management, stress management, getting a GED. We are doing 
recidivism research on those programs, as well.
    They have not been around quite long enough for us to come 
out and say yes, this works. We are close. But as soon as that 
is available we will be able to make that public, as well.
    Mr. Cummings. Well, let me be very specific. I am impressed 
that there are computer classes, because that makes sense. I 
don't see how one can operate in this society. The janitor in 
my church, everything is run by a computer. If he didn't know 
how to run a computer, he has a problem.
    I am just wondering, if you look at something like computer 
classes, do you say 3 years after the person is out did he get 
a job operating computers? do you follow what I am saying? In 
other words, I don't see how you can even make the 
determination whether something is working unless you can kind 
of see whether it led to somebody having an occupation in that 
area. Do you follow me?
    Mr. Lappin. Yes, I do, but we don't do it on a case-by-case 
basis, given the volume. We release 61,000 inmates a year, and 
so we don't have a system that tracks each and every one of 
those individuals. Again, if you would like more detail, I am 
not a researcher, but my staff could come by and provide the 
research that we have done on this and explain to you how we go 
about determining whether or not these programs work and how we 
track the offenders and do the assessment. I would prefer, if 
you have the time, that I bring some folks along that better 
understand that process and can further explain to you or other 
committee members how that research occurs and the outcome.
    Mr. Cummings. Going back to a statement you made, you said 
there has been a reduction in recidivism; is that right?
    Mr. Lappin. In the Federal offenders.
    Mr. Cummings. All right. I am glad you clarified that. Why 
don't we talk about the Rivers Correctional Institution, since 
that is the subject matter of our hearing. What has been the 
recidivism--and you may have answered this earlier. What has 
been the recidivism rate with regard to this institution?
    Mr. Snyder. We don't have those figures.
    Mr. Cummings. You should. It seems like you would. If you 
can quote the recidivism rate for the system and you come here 
before Congress and it seems like you would. I kind of think 
that if I were trying to get another contract, one of the 
things I would want to be able to say is that we were able to 
put together a program that had this effect to this Government 
or the D.C. government or anybody else. I am just wondering, 
Are we concerned, Mr. Snyder, about just warehousing? Or are we 
concerned about actually rehabilitating and helping people to 
go out and try to make something of their life? I mean, I am 
just wondering.
    Mr. Snyder. We are very concerned at their rehabilitation. 
That is why the emphasis on our progress. We are willing to do 
more.
    Mr. Cummings. Well, why don't you tell me what you are 
willing to do, because maybe we can make that happen. What are 
you willing to do? Because I want to and I am sure Ms. Norton 
wants to hold you to what it is you want to do. I don't hear 
too many people coming in here talking about what they want to 
do, so what would you like to do?
    Mr. Snyder. As Director Lappin stated previously, we will 
be able to enhance our substance abuse program and enhance the 
vocational training programs we offer at our facilities in 
conjunction with the Bureau.
    Mr. Cummings. And how do you plan to do that?
    Mr. Lappin. The Bureau is going to revise the contract to 
require those types of programs be provided in the Rivers 
contract.
    Mr. Cummings. All right.
    Mr. Lappin. We spoke about that earlier.
    Mr. Cummings. All right. I understand.
    I wish I had gotten here a little earlier, because I would 
have loved to have just heard all this testimony.
    Were you about to say something? You look like you are 
getting ready to jump over the table.
    Mr. Lappin. I was just going to say if you would like us to 
come up there and meet with you privately on the issues we 
discussed, we would be more than happy to.
    Mr. Cummings. Yes. What we will do is I will submit some 
questions.
    This whole concept of warehousing human beings----
    Mr. Lappin. We agree.
    Mr. Cummings. I think at some point we have to figure out 
how to help people move on with their lives, and living in 
Baltimore where we have a significant number of people coming 
back and literally saying to me--I mean, I have heard this so 
many times, Mr Cummings, I have no way to make a living. I 
don't know what to do. I can't get a job. And if I cannot find 
a job, I am going to have to do the very things that sent me to 
prison. I have heard that many times.
    It just seems to me at some point, if we are going to be 
using taxpayers' dollars, we ought to be making sure that we 
have effective programs that have the effect that we intend, as 
opposed to a situation where we are warehousing people only to 
come out to be placed in the situation that I just stated.
    Mr. Lappin. Can I respond to that?
    Mr. Cummings. Sure.
    Mr. Lappin. We are in complete agreement. We are opposed to 
warehousing offenders. Our job is not only to provide a safe, 
secure environment, but provide opportunities for offenders to 
improve skills and ability where there is vocational, literacy, 
work skills during their period of incarceration.
    Again, I think we do help many of the inmates, but we have 
to have willing participants. We had a long conversation 
earlier that addressed some of those issues. Again, we would be 
more than happy to sit down with you personally and discuss 
what we do in the Bureau of Prisons to accomplish that. We 
certainly want that for the offenders that are at Rivers, as 
well.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Davis of Illinois. Thank you very much, Mr. Cummings.
    Of course we have a vote on, so we are going to go and 
vote, but Ms. Norton is going to remain and will continue.
    Gentlemen, let me thank both of you. I think this will end 
this panel and we will go right into the next panel. We 
certainly want to thank all of you for your patience and for 
your indulgence. We appreciate it very much.
    Ms. Norton [presiding]. This is very important testimony 
for us. It was important to spend the time we did.
    Please stand and be sworn.
    [Witnesses sworn.]
    Ms. Norton. The record will show that each witness answered 
in the affirmative.
    The green light indicates you have 5 minutes to summarize 
your statement; the yellow light means your time is running 
down. We recognize that we have spent much more time with the 
first witnesses who have the immediate power to do something 
about the situation. We are very pleased that we believe we 
have a commitment here under oath to equalize services between 
Rivers, for example, and BOP facilities for the first time. It 
was important to get that and to document that. But it is 
equally important to us to document what you will have to say.
    I am going to begin with Mr. Quander, Paul Quander, Jr., 
who is the Director of Court Services and Offender Supervision, 
a Federal agency responsible for 15,500 convicted felons who 
are on probation, parole, or supervised release in Washington, 
DC.
    Mr. Quander.

 STATEMENTS OF PAUL A. QUANDER, JR., DIRECTOR, COURT SERVICES 
   AND OFFENDER SUPERVISION AGENCY; STANLEY JACKSON, ACTING 
 PRESIDENT, UNIVERSITY OF DISTRICT OF COLUMBIA; CHARLES JONES, 
 DIRECTOR, EMPLOYMENT SERVICES, D.C. DEPARTMENT OF EMPLOYMENT 
  SERVICES; PHIL HOLMES, VICE PRESIDENT, CAREER DEVELOPMENT, 
GOODWILL INDUSTRIES; DENNIS TORBETT, VICE PRESIDENT, WORKFORCE 
  TRAINING AND EMPLOYMENT, HOME BUILDERS INSTITUTE; AND JAMES 
          AUSTIN, PH.D., PRESIDENT, THE JFA INSTITUTE

               STATEMENT OF PAUL A. QUANDER, JR.

    Mr. Quander. Good afternoon, Congresswoman Norton and 
members of the subcommittee. Thank you for the opportunity to 
appear before you today.
    As Director of the Federal agency that supervises over 
15,000 men and women on community supervision in the District 
of Columbia, nearly 6,000 of whom are in post-release 
supervision, I know first-hand that the foundation of 
successful reentry can be laid during a period of 
incarceration.
    It is now 10 years since the Revitalization Act transferred 
responsibility for housing D.C. co-defenders to the Federal 
Board of Prisons and created the Court Services and Offender 
Supervision Agency. In that decade, CSOSA has transformed 
community supervision by lowering case loads, implementing 
stringent contract standards and other close supervision 
strategies, increasing drug testing, opening multiple field 
offices, and automating the case management system.
    In addition, CSOSA provides limited substance abuse 
treatment and operates a learning and vocational assistance 
program to supplement the city's over-burdened service 
capacity.
    Last year we opened a Reentry and Sanctions Center to 
provide intensive assessment and treatment readiness 
programming for high-risk offenders entering supervision or at 
risk for revocation.
    These services are sorely needed. Most of the offenders 
under our supervision have long histories of substance abuse, 
educational under-achievement, and under-employment. Of our 
population, 70 percent has a documented history of drug use; 39 
percent are under supervision for drug offenses; and 20 percent 
have sought substance abuse treatment within the past 6 months. 
Only 56 percent have been employed during the past 6 months, 
and only 41 percent possess a GED or high school diploma.
    Given this profile, we believe that substance abuse 
treatment, vocational training, and release preparations are 
the most critical programmatic needs. Almost half of the D.C. 
offender population at Rivers is incarcerated for a drug-
related offense. Most parole revocations also involve substance 
abuse violations. Research has established beyond question that 
crime escalates in severity and frequency as drug use 
increases.
    If more returning D.C. offenders completed the BOP 500 hour 
residential treatment program, which is certified, if it was at 
Rivers or elsewhere, CSOSA could then use its resources to 
continue services either through outpatient treatment or 
through the Reentry and Sanctions Center. This coordinated 
approach would enable a greater proportion of offenders to 
receive a clinically appropriate course of treatment. This, in 
turn, would reduce drug use and drug-related crime among the 
supervised population.
    Residential treatment programs must be delivered by 
qualified staff with appropriate experience, training, and 
certification. We support the Board of Prisons's efforts to 
ensure that treatment programs at Rivers and other facilities 
that house D.C. co-defenders will meet these requirements.
    Vocational training is another critical need. CSOSA has 
been a partner with the GEO Group and the Board of Prisons to 
develop programs that equip inmates with the skills needed in 
the D.C. job market and to link these programs with local 
employers and trade unions. Such linkages will provide 
returning inmates with better training and long-term career 
prospects.
    We hope the carpentry program that is currently being 
developed will be the first of multiple BOP and GEO efforts to 
bring vocational training to Rivers. We also appreciate the 
dedicated efforts of our other partners, the Office of the D.C. 
State Superintendent of Education and the University of the 
District of Columbia, to implement vocational programs at 
Rivers. CSOSA has provided valuable support to both of these 
endeavors.
    According to the District of Columbia Workforce Investment 
Council, approximately 70 percent of D.C. area employment is in 
the business services and information technology sector. Those 
D.C. offenders who are adequately prepared have the opportunity 
for training in these areas where they are most likely to find 
a job. As of June 2007, the Board of Prisons reported that 43 
percent of the Rivers population was serving 59 months or less. 
While it is difficult to define the capacity, duration, and 
content of programs that should be developed at Rivers, any new 
programs should take into account the length of sentence served 
by Rivers inmates.
    The BOP utilizes full-time staff, adjunct instructors under 
contract, and cooperative agreements with local universities 
and trade schools to deliver programs. Each of these service 
delivery models should be considered for Rivers, which is 
located in a relatively isolated area.
    Finally, we must recognize that offenders need skills to 
manage stress and overcome ingrained areas of thinking. 
Understanding and behavior adjustments must be as much a part 
of this treatment as the drug treatment and job training. A 
recent Pennsylvania Department of Corrections study cited 
unrealistic expectations by inmates, anti-social attitudes and 
belief, and poor coping skills as the three most important 
factors in parole violation.
    CSOSA has collaborate with Rivers' staff since the summer 
of 2003 to augment their release preparation programs through 
two videoconference programs. The CSOSA faith community 
partnership implemented video mentoring to link inmates nearing 
release from Rivers with faith-based mentors who provide pre-
release encouragement and post-release support. We have also 
developed community resource date, a quarterly videoconference 
to provide inmates nearing release with information from local 
government and nonprofit service providers in the critical 
areas of housing, health care, education, and employment. 
Response to these programs has been very positive; however, 
they are just one element of a comprehensive release program.
    I look forward to continuing to work with the Board of 
Prisons and Rivers and our other partners as we try to improve 
the programs available to the men at Rivers, because as the men 
return to the District they are coming to our community and 
they need to be prepared.
    Thank you, Congresswoman Norton.
    [The prepared statement of Mr. Quander follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much, Mr. Quander.
    I am introducing people as we go along, so people don't 
have to remember who I said this witness was. The next witness 
is the acting president, Stanley Jackson, University of the 
District of Columbia. He was chief of staff and senior vice 
president for operations at the University before.
    Mr. Jackson, please summarize your testimony.

                  STATEMENT OF STANLEY JACKSON

    Mr. Jackson. Let me again say good evening, Congresswoman 
Norton and members of the subcommittee. I am Stanley Jackson, 
and it is truly a pleasure and an honor to be before you today 
to speak to the subcommittee on the role the University has 
played extensively in helping ex-offenders reenter society and 
what it means when we do it right.
    As you have heard and read numerous articles, when ex-
offenders return to the District of Columbia, they often return 
to the same challenging social environments that led to them 
committing the crimes in the first place. Many of these 
individuals often lack necessary education and skills to obtain 
real, meaningful employment. Those that have received the 
education and our skill training and are able to compete often 
face additional barriers and challenges. Typically they find 
that their criminal records make it harder for them to obtain 
employment opportunities.
    In a recent article in the Washington Post that appeared in 
August of this year, there were some sobering statistics cited 
in that article supporting the challenges of our ex-offenders. 
The article indicated that approximately 2,000 ex-offenders are 
returning to our community every year. That is in excess of 
five a day.
    Also, it says that as many as 10 percent of our population, 
or 60,000 residents, are, in fact, felons.
    It also goes on further to say that you have approximately 
15,000 returning ex-offenders who are fellows who are under 
some court supervision. These ex-offenders arrive at the homes 
of relatives, at halfway houses, and at shelters. One out of 
three end up homeless or very close to it. Seven out of 10 have 
or have had substance abuse problems. Half of these ex-
offenders do not have high school diplomas, and they need 
additional support ant training.
    The picture facing these ex-offenders is not pretty. 
Without proper training, educational support that would lead to 
employment opportunities, many of them will be rearrested 
within a period of 3 years.
    The University, through our work force development program, 
has a long history of working with the ex-offender community to 
assist with their transition back into our communities. 
Beginning about 30 years ago, the UDC Lorton Vo-Tech program 
consisted of an array of courses which we offered to our 
residents who were confined at the D.C. Department of 
Correction at Lorton facility. These courses ranged from areas 
of automotive technology, barbering, brick masonry, carpentry, 
cosmetology, dentistry, facility maintenance, landscaping, 
plumbing, printing, and wood work, just to name a few.
    Since June 2001, the UDC Vo-Tech program began phasing out 
based on a mandate to terminate the facility at Lorton. Since 
that time, the University has continued to work very closely 
with our ex-offender population through the Office of 
Apprenticeship, Technical, and Industrial Trade, and has served 
as a constant contact for individuals who previously were 
incarcerated in the Lorton complex, and either started or 
completed programming at the Vo-Tech program.
    Many of these individuals continue using the University as 
a sounding board or as a resource to assist them in various 
areas, such as verification of their prior training, 
certificate of self-completion of training, request for 
continuation of training, request for refresher training, and 
request for placement.
    Recently we have renewed and re-energized our efforts to 
assist in the transition of ex-offenders back into our 
communities. We are active team members on the District of 
Columbia's Just Us Transition from Prison to Community 
initiative, which we refer to as the TPC initiative. The TPC 
initiative is a model that identifies and promotes what we 
believe are evidence-based best practice that we believe should 
be implemented in the following stages of transition process.
    One is certainly assessing and classifying new prison 
inmates, developing and implementing transition plans for each 
inmate, releasing offenders from prison in a timely manner, 
providing community supervision and continuous support, 
responding to violations of release conditions, and discharging 
successful offenders from supervision in a timely manner.
    The University will continue to focus on ways in which it 
is possible to match our D.C. offenders with educational 
opportunity. We are very much interested in working with the 
educational component of the reentry process and training 
process.
    Additionally, in June of this year we were very fortunate 
to enter into a partnership with the Justice Grants 
Administration with the GEO Group at Rivers, Court Services and 
Offenders Agency, and the Criminal Justice Council to implement 
what we believe is a good program we refer to as the UDC or 
University of District of Columbia Rivers Correctional 
Institution Reentry Program, a pilot project that we refer to 
as D.C. REP.
    The program is specifically focused on occupational skills 
enhancement and educational opportunities for ex-offenders 
returning to the District of Columbia.
    The D.C. REP program will provide pre-release occupational 
and literacy assessments, skills enhancement exercise, and job 
readiness training to soon-to-be-released offenders serving at 
the Rivers Correctional Institution and expecting to return 
back to our community here in Washington, DC. These continuous 
services will enable the offenders, upon release, to move 
directly into a certifiable occupational training program, 
hopefully gain meaningful employability skills, and prepare 
them to become gainfully employed and self-sufficient, which is 
our mutual goal.
    The University, in cooperation with the American College 
Testing, Inc., Learning Centers and guided by the Department of 
Labor Industry Standards, has developed a comprehensive pre-
release program that will enable returning offenders to acquire 
requisite skills and attitudes for today's job market, so that 
with the proper occupational training they may enter the job 
market----
    Ms. Norton. Mr. Jackson, I have a Town Meeting, and it is 
supposed to begin at 6. I want to be sure we hear from everyone 
and be able to ask just a question or two. Could I ask you to 
summarizes the rest of your testimony?
    Mr. Jackson. Yes.
    In summary, let me say that we are prepared to work very 
aggressively with the community and all our partners to make 
sure that our residents who are soon to be returning back to 
the community have the required support, whether it is 
training, job skills readiness training, whether it is 
educational training, and whether it is continuous wrap-around 
service so they can come back into our society and become 
meaningful participants in our great city.
    I think where we are right now, we believe that education 
is truly a gap-filler, and what we want to do is to be that 
breach filler. We want to be able to work with our partners, 
which is CSOSA, DOES, and other agencies to make sure that we 
provide our residents the greatest opportunity to succeed as 
they return from incarceration back to their communities, and 
also become meaningful participants and meaningful family 
members incorporated back into the global market of Washington, 
DC.
    Thank you.
    [The prepared statement of Mr. Jackson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Norton. Thank you, Mr. Jackson.
    Mr. Charles Jones, program director for Project Empowerment 
Program at the D.C. Department of Employment Services.
    Mr. Jones, would you summarizes your testimony in 5 minutes 
or less, please? I am sorry to have to rush us this way, but, 
as you can perhaps understand, it was necessary to lay out on 
the record, particularly given the commitments we got from the 
second panel, what was required of those who had the ability to 
move this circumstance forward for our residents, but your 
testimony is very important to us. We have your written 
testimony. Please summarize that testimony for us, Mr. Jones.

                   STATEMENT OF CHARLES JONES

    Mr. Jones. First of all I would like to begin by thanking 
the members of the subcommittee for giving me the opportunity 
to present my assessment of transition employment services and 
programs for the District of Columbia ex-offenders.
    I am Charles Jones, and I am the program director of the 
Project Empowerment at the Department of Employment Services. 
My office currently oversees the transitional employment 
program [TEP], an initiative that is helping District 
residents, 80 percent of them who are ex-offenders, rebuild 
their lives and become productive citizens.
    The Department of Employment Service Project Empowerment 
office over the last 3 years has worked with offenders and have 
partnered with CSOSA and UDC to assist in the successful 
transition of our participants, and we like to consider the ex-
offenders in our program as participants.
    To summarize this, I would like to also say that at the 
Department of Employment Services we feel that we have achieved 
a great deal of success in the face of the daunting challenges 
that many of our participants are faced with; nevertheless, a 
journey toward success for the ex-offender is never easy.
    Immediately upon release, most ex-offenders face the very 
real obstacle of navigating a new environment complicated by 
significant economic, technological, and social changes. Just 
obtaining basic necessities such as valid identification and 
access to health care, employment, work clothing, and housing 
is usually quite overwhelming for our participants, yet all are 
essential for leading functional lives and sustaining economic 
self-sufficiency.
    If ex-offenders do not receive systemic rehabilitation 
services that lead to social reintegration, employment, 
education, and housing, then communities will be left 
vulnerable to the cost of recidivist criminal activity.
    A major factor in this challenge is adequate funding. 
Clearly the prison system is not doing enough to prepare ex-
offenders for survival in the outside world; consequently, many 
ex-offenders are left unemployed, jobless, homeless, hopeless, 
even after going through reentry programs.
    We believe that prisons are positioned to successfully take 
on these challenges. Prior to release, ex-offenders must be 
afforded access to the community and allowed access to 
prospective employers. They must be afforded simulated 
workplace scenarios and mock interviews to increase workplace 
familiarity. They must be provided with intensive life skills 
development, relationship building, anger management, and 
parenting skills.
    Public or privately funded ex-offender reentry programs 
should provide a continuation of those services, as well as 
access to an expanded network of community partnerships that 
provide support in such areas as education, clothing, as well 
as financial. These type of programs and services will give the 
ex-offender an excellent chance at successful community 
reintegration.
    Numerous research studies have suggested that pre-release 
reentry programs that involve transitional community services, 
such as job training, job placement, and job retention 
services, as well as supportive services such as substance 
abuse treatment, housing assistance, will discourage recidivism 
and promote community reintegration.
    I am convinced of this. Absent of a comprehensive, 
systematic, and proven process to comprehensively address the 
needs of our ex-offender population, which must begin prior to 
an ex-offender's release from prison, the Washington, DC, 
metropolitan area must be prepared to continue to deal with the 
human and financial costs of recidivism and an ongoing threat 
to public safety.
    Congresswoman Holmes Norton and members of the Subcommittee 
on the Federal Workplace, Postal Service, and District of 
Columbia, it has been an honor to appear before you today as an 
advocate for ex-offenders who want to lead productive lives and 
provide for their families.
    I am pleased to answer any questions you may have.
    [The prepared statement of Mr. Jones follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Norton. Thank you, Mr. Jones.
    Our next witness is Phillip C. Holmes, vice president for 
program development and public policy for Goodwill Industries 
for Central Maryland and Eastern Shore.
    Would you summarize your testimony in 5 minutes or less, 
Mr. Holmes?

                 STATEMENT OF PHILLIP C. HOLMES

    Mr. Holmes. Thank you, Madam Chair.
    I am Phil Holmes. I work for Goodwill Industries of the 
Chesapeake out of Baltimore. I am vice president for program 
development and public policy. I am here today on behalf of 
Goodwill Industries International and, in particular, our Task 
Force on Reentry.
    I have submitted my written testimony, and I just want to 
very briefly stress three points.
    One, there are effective, efficient, cost beneficial ways 
to return men and women from prison back to our communities.
    I want to, second, briefly talk to you about a reentry 
program we have been operating since 2001 called our seats 
program.
    And the third point I would like to make is something that 
has happened throughout this hearing, and that is the stress on 
the recidivism rate and noting what these recidivism rates are.
    My first point is that we have moved, thankfully, away from 
the belief in our country that nothing works in rehabilitation 
of offenders, and we are finally back to recognizing that some 
things work. We know from the literature that paid employment--
and I want to stress paid as opposed to forced employment 
through Prison Use Industries--works in reducing recidivism. We 
know that you have heard throughout today's testimony that 
education classes work and that pre-GED and GED classes work to 
reduce recidivism. We know that vocational training works.
    According to Edward Latessa, who has done meta research on 
what works in reentry, he argues that cognitive restructuring 
counseling is the most effective thing we can do to prepare men 
and women for release.
    Moving to my second point, I would like to point out that 
we have been, as a business, essentially running a reentry 
program in Baltimore for the past 7 years, and the fact of the 
matter is fully half of the men who come to us to help navigate 
the employment system have some criminal justice system 
involvement, and fully 25 percent of the women. Sadly, this 
rate is increasing.
    Our SETTS Program, Supporting Ex-Offenders in Training and 
Transitional Services, has two components, and I haven't heard 
them discussed today. One is an in-reach component, where we go 
inside the prisons and we recruit participants to get into a 4-
week readiness program. It is an intensive readiness program, 
and the goal is to engage offenders in their last 3 to 6 months 
of incarceration.
    We also assign a case manager, who literally is a guide to 
help men and women when they leave prison navigate and make 
these community connections that are so essential.
    The contribution we are trying to make at Goodwill 
Industries is helping people successfully navigate the labor 
market, get a job, and keep a job.
    We have, in the last 12 months ended June 30th, we helped 
176 successfully complete this inside-the-fence component, and 
after their release we helped 73 to gain employment, and an 
additional 27 individuals to gain subsidized employment. I 
stress that subsidy, because sometimes you need subsidized 
employment as an initial way of getting people employed.
    We also served 488 men and women who came to us from the 
community who were released without our being able to work with 
them inside the prison, and we helped 309 of those individuals 
to gain unsubsidized, competitive employment, and an additional 
30 others to gain subsidized employment.
    We are striving to scale this program up because the State 
of Maryland releases 13,000 men and women back to our 
communities every year, 9,000 to Baltimore City where I live.
    My third and final point, Madam Chair, is simply that we 
need to start asking our prison officials to report on their 
recidivism rates. Until this is part of our public policy 
discussion, it is our belief that prison administrators won't 
take the affirmative steps to apply what really works in 
reducing recidivism.
    Thank you so much for this opportunity to testify.
    Ms. Norton. Thank you, Mr. Holmes.
    Dennis Torbett has experience in the employment and work 
force fields and with construction. I am going to ask him to 
summarize your statement, Mr. Torbett, in 5 minutes or less.
    Mr. Torbett is the vice president for workforce training 
and employment at the Home Builders Institute.

                  STATEMENT OF DENNIS TORBETT

    Mr. Torbett. Thank you, Congresswoman Norton and members of 
the subcommittee for this opportunity to testify on the work of 
the Home Builders Institute to train offenders and ex-offenders 
for successful careers in our industry. I am the vice president 
for workforce training and employment with the Home Builders 
Institute, and we are the work force development arm for the 
National Association of Home Builders.
    One of the most pressing problems facing our industry for 
many years has been the shortage of skilled workers. Factors 
contributing to this shortage include increasing and record 
demand for workers to build, remodel, renovate, and maintain 
our homes, retirements in our industry, and dwindling interest 
in the building trades.
    Compounding the problem has been insufficient training 
opportunities for those considering a career in the industry. 
The number of construction career programs offered by high 
schools, post-secondary vocational schools, and community 
colleges has declined dramatically over the past 25 years, and 
training through the public work force development investment 
system is very limited.
    Well, according to BLS and our industry estimates, our 
Nation will need to construct 18 million new homes to meet 
demand over the next decade. That equates to creating more than 
1 million new jobs in our industry.
    HBI has been training our industry's labor force for more 
than 30 years, serving targeted populations, including 
adjudicated and at-risk youth and adults, dislocated workers, 
and homeless veterans. Our programs put thousands to work in 
our industry, while helping to rebuild lives.
    Over the years, our programs and methodologies for 
offenders and ex-offenders have been evaluated and shown to 
contribute to lower recidivism and higher employment outcomes.
    HBI has two main programs targeted for offenders and ex-
offenders: a youth-oriented project craft and an adult-oriented 
project trade. Both programs emphasize training and job 
placement in residential construction. They also work to 
promote successful transition into the community through 
education, employment, and social services that promote 
reintegration and reduce recidivism.
    The core of HBI's training is the integration of work-base 
learning, combined with the program of vocational and academic 
skills. Our curriculum combines work-based learning with 
workplace literacy and employability development. It also 
provides career advancement and increased wage earnings through 
a progression of vocational training and learning programs. We 
provide 240 to 480 hours of instruction, coordinated with other 
treatment and education that includes trade skills, safety 
training, life skills, work habits, and math and communication 
skills.
    Intensive, hands-on training takes place at building sites 
made available by community-based organizations, 
municipalities, and home building and remodeling sites. There, 
trainees apply skills introduced in the classroom while working 
alongside professionals. This type of learning has been very 
successful for our adult offender and ex-offender populations, 
increasing the likelihood of them completing their training and 
gaining important life skills.
    The program builds self-esteem and it provides 
opportunities for students to help their communities through 
these projects.
    Home Building Industry representatives helped us develop 
our curriculum and they are also actively involved in planning, 
community work-based learning, training. job placement, support 
services, and followup.
    The collaboration addresses two critical barrier issues to 
prisoner reentry: access to employment, and comprehensive wrap-
around services such as family reunification and housing.
    Industry members also act as guest lecturers, offer job 
try-outs, conduct information on mock interviews, and provide 
work-based job readiness and employability training.
    I would like to touch briefly on a couple of our active 
programs.
    Project Craft in Nashville, which serves students from 18 
to 24 years old, includes both a facility-based construction 
program as well as a community-based construction training 
program. It is funded by the Department of Labor's Responsible 
Reintegration of Youthful Offender program, and the numbers 
speak for themselves. Over a 5-year period, 215 offenders 
enrolled in the program. Of those, 85 percent were repeat 
offenders, yet 99 percent of those graduating with a pre-
apprenticeship certificate training certificate were placed in 
jobs. More than 2 years after graduation, 25 were still 
employed with their placement employer, and only 5 have been 
newly convicted.
    More than half, over 60 percent of those students, 
experienced at least one grade level improvement or gain in 
reading and math. Although many may no longer be at their 
original place of post-training employment, we know that they 
have not returned to the judicial system, which is a 
significant achievement not to be overlooked.
    Unfortunately, due to funding delays and government 
bureaucracy, HBI is in the process of closing down this very 
successful program.
    Project Trade in Sheridan, IL, operated by the State 
Department of Corrections, has implemented an innovative 
treatment approach which includes vocational training. Since 
Project Trade Sheridan opened its doors in 2004, 247 inmates 
have gone through their program, with 171, or 70 percent, 
receiving certificate in the building trades.
    In conclusion, these programs are specifically designed to 
serve the offender population. It is not uncommon to have ex-
offenders enroll in other HBI training programs serving 
veterans or the homeless. HBI works aggressively with all 
available resources to provide information, programming, and 
educational opportunities to those interested in starting a 
career in our industry.
    We know that if you are a hard worker, have a skill, and a 
pathway to a good, long-term career in an industry full of 
opportunities, you are less likely to return to criminal 
behavior.
    We know that if you give someone a job he may quit 
tomorrow; if you teach them a skill, they will have it for a 
lifetime.
    Together, industry and government must ensure that there 
continue to be training programs available to these communities 
that can train the needed workers to enter our industry. 
Programs such as the ones I have described are key contributors 
to this goal, and, much more, they build self-esteem. They 
empower the participants and they can fundamentally change 
lives.
    As you review the training and education programs that have 
made a difference, I hope you will consider those that I have 
shared with you today.
    HBI and its partners in the residential construction 
industry and the correctional systems that we work are 
convinced that our programs are making a difference in people's 
lives.
    Thank you, Congresswoman Norton, and to the subcommittee.
    [The prepared statement of Mr. Torbett follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you very much, Mr. Torbett.
    The final witness is Dr. James Austin, who has 30 years of 
experience in correctional planning and research. He currently 
is president of the JFA Institute, which is a research 
institution that provides technician assistance to States and 
agencies on prison population projection.
    Particularly with the time problem I am facing, I am going 
to ask you, Mr. Austin, to summarize your testimony in 5 
minutes so we can get at least a question or two asked of all 
the witnesses.

                   STATEMENT OF JAMES AUSTIN

    Mr. Austin. Thank you, Congresswoman Norton.
    Basically, I was asked to provide testimony because I did a 
study recently for the U.S. Parole Commission of D.C. inmates 
who had been released from the BOP. As such, it is the only 
recidivism study that exists, although I might add, listening 
to the testimony, the BOP is totally capable of producing the 
same study on a routine basis.
    In particular, we looked at the extent to which D.C. 
inmates got programs from the BOP and what impact they had on 
recidivism, so all of the questions that have been asked could 
have been answered if people would look at the study, which you 
now have.
    Here are the major findings:
    No. 1, the D.C. inmates that are being sentenced and come 
out of the BOP have much longer sentences and serve much longer 
time in prison than other State inmates that you see in prison. 
I want to emphasize this is a very important statistic that 
your inmates are serving about twice as long as other inmates 
in other State prison systems.
    A large reason for that was the sentencing code, but also 
the practices and the policies of the U.S. Parole Commission, 
which I am working with.
    In terms of the recidivism rates, the recidivism rates of 
the D.C. inmates are pretty typical of other State inmates. 
Most people don't understand this, but most inmates that go to 
prison do not come back. About 60 percent never come back to 
prison again. There is a large pool of prisoners, of the 7,000 
that are locked up that are D.C. inmates, a huge number of the 
BOP prisoners, who are very low-risk and will never come back 
to prison again. What is interesting about this also is if you 
look at their rate of being arrested, both before they went to 
prison and after, it is coming down significantly, a 60 percent 
drop. So the idea that recidivism rates are real high and they 
are going higher is completely false. Just the opposite. They 
go much lower once a person goes through the prison system.
    The other important statistic that is very important is 
that no matter how long you spend in prison--and this is 
important for D.C. inmates because they have much longer time 
they are serving compared to other inmates--there is no 
difference in recidivism rates, so you are keeping very large 
numbers of prisoners in prison longer than they need to be, and 
all the money that people talk about for programs has already 
been funded. You are funding them for that longer period of 
length of stay.
    One of the reasons that we looked at the risk instrument 
that the Commission used, that determines how long the D.C. 
inmates serve on their indeterminate sentencing, and also on 
parole revocations. The factors they are using--and they now 
know this--are not valid, so they are not predictive of 
recidivism, and they are not valid because they don't at the 
factors of inmates that are incarcerated, what we call dynamic 
factors. Are they doing programs? Getting older is a big one, 
and getting prepared for release.
    We found a number of factors that do predict that, and if 
the Commission were to use those, prisoners could be released 
sooner and we would save a large amount of money without 
aggravating public safety.
    One other thing that is important is that for parole 
violators, which they apply to all prisoners, their 
guidelines--I don't know where they came from, but the 
guidelines often require a prisoner to serve more time on a 
technician parole violation than on the original sentence. I 
want to repeat that: they can serve more time on a technical, 
non-criminal behavior than on the original sentence.
    So the recommendations that we have made to the Commission 
and to the BOP and to the Department of Justice is change the 
guidelines. This all can be done by administrative rule. It 
doesn't require a law of any kind. They need to stop using the 
factors that they are using to keep people in for longer 
periods of time. They never no predictive value at all.
    Overall, Congress needs to look at this whole issue of 
length of stay. When the BOP says that their recidivism rate 
has gone down from 44 to 40, anyone who is a good researcher 
knows why that is going on is because the length of stay has 
jumped dramatically in the BOP. They are filled with prisoners 
that are low risk now, and it is a much older population, and 
because age is such a predictor it has to come down, because we 
are keeping people in so long now.
    Finally, the U.S. Parole Commission needs to adopt new 
guidelines that take into account the behavior of the prisoner 
while they are in the BOP. We found a number of factors that 
are good factors. By the way, we found most of the inmates did 
not get to participate in a program while they were 
incarcerated. Somewhere in the ball park of 25 to 30 percent 
actually got into a program before they got released. This is 
for people that were released in 2002. Maybe it is a lot better 
now, but those coming out in 2002 did not get into too many 
programs. Those that did and got Social Security cards, got 
driver's license, went through the reentry programs had much 
lower recidivism rates.
    It is very clear what we have to do, and it can all be done 
administratively. It doesn't require any laws, but just people 
getting together and doing some things differently.
    I have briefed the Commission. I must say the Commission 
has new leadership with some good members on there that I know 
personally. They want to go forward. They are about to make 
that decision. I would urge this Commission to press the U.S. 
Parole Commission to go forward with these changes.
    Thank you for your time.
    [The prepared statement of Mr. Austin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois [presiding]. Well, thank you very 
much.
    Ms. Norton, I know that you have to leave at 6, I 
understand, so if you want to go ahead.
    Ms. Norton. Thank you, Mr. Chairman. Thank you very much. I 
just have a question for each of the witnesses. They gave 
important testimony, and the written testimony is additionally 
very helpful to us.
    Mr. Quander, did I understand that you are trying to put 
some of the services that CSOSA now offers or directs people to 
out of prison behind prison walls to give you an opportunity to 
prepare people with those sources right there in the prison 
instead of waiting until they get out?
    Mr. Quander. Yes. That is exactly what we are trying to do. 
We are trying to be as proactive as we can, not only with the 
GEO Group but with the University of the District of Columbia 
in partnership with putting some of those programs in the 
institution so that the men there can take advantage of that.
    Ms. Norton. Can you tell us what programs would go into the 
institution?
    Mr. Quander. One is a preparedness program that the 
University of the District of Columbia is working on.
    Ms. Norton. That is a very important program, where they 
evaluate the resident. I don't regard that as a program. That 
is an evaluation. It seems to me it is a critical mission that 
they have.
    How about programs?
    Mr. Quander. The other program that we are close to 
implementing is a carpentry training program that we have 
developed in partnership with the Board of Prisons and with GEO 
and with the Carpenters Union here in the District of Columbia. 
We wanted skills for which men could get jobs when they get 
out. We are progressing to the point now where the Carpenters 
Union here has been in contact with the Regional Carpenters 
Authority in the North Carolina region. That Carpenters Union 
there is speaking with the facility and with the Bureau so that 
they can know exactly what will be needed.
    Ms. Norton. That is very important because to work with the 
Union you know they have to be certified, and we see the 
relationship there also, the need.
    One final question on structure. You have been to Rivers a 
number of times.
    Mr. Quander. I have been to Rivers.
    Ms. Norton. Do you find that the residents, the inmates in 
Rivers have a structured environment where they move every hour 
or so from one activity to the other, and that all of them have 
at least 4 hours of work? Did you observe that to be the case?
    Mr. Quander. I observed more individuals on the basketball 
and playing fields than working or in class when I was there 
when I visited.
    Ms. Norton. Thank you. That was our observation, and we 
have every reason to believe that is where most of them spend 
their time. I actually talked with them and asked them what 
they did.
    I am concerned that there was testimony that made it look 
as though they have the same structured environment.
    Mr. Jackson, your testimony listed an extraordinary number 
of programs that at one time were provided when Lorton was 
open. Then, of course, these inmates were spread all over the 
country.
    We are grateful for the assessment idea. That was one of 
the main ideas we wanted to have your testimony. But may I ask 
you if there are specific kinds of courses. This is a college. 
This is a university. In fact, there is an affiliation with a 
college down there, I guess, to get the HVAC program where 
somebody there went and got a Federal grant.
    Mr. Jackson. Yes.
    Ms. Norton. I wondered whether or not you know of 
professors at UDC who are prepared to ask to seek similar 
Federal grants so that some of the offerings of UDC could be 
made, as you apparently made them before, including college 
courses?
    Mr. Jackson. Yes. I think that is exactly what we are 
doing. The whole first phase was the assessment phase. Once we 
do that, then we develop the individual performance plans or 
development plans based on the client's expected desire for an 
occupational opportunity when he or she returns from 
incarceration. So what we do with the initial tranche is to do 
the evaluation, identify what their desires are when they leave 
prison, what kind of industry or sector they would like to get 
in, and then provide them with a menu of training and services 
to get them to that entry level.
    In addition to what we are doing, which is a new feature, 
we are actually, as part of our challenge, meeting with 
employers in the region. We recognize that this is a regional 
experience in terms of when our residents come back here, that 
they need to be employed, what the opportunities are throughout 
our region. So right now one of the challenges of the director 
of the program is to work with employers to find out their 
willingness to work with us and to hire our employees or our 
residents that are coming out of the facility.
    What we do is also educate them about how we can mitigate 
their risk by offering them a bonding program which basically 
hedges their risk against any loss or theft occurring from the 
hiring of any one of our ex-offenders, and we also have 
incentives from the tax side, as well. There are tax breaks in 
place.
    Ms. Norton. If such a program were put together, I would 
recommend that you partner with somebody like Goodwill who, in 
fact, has done this, knows how to do this. Home Builders have 
done it, know how to do it. Because I think it is very 
difficult. In fact, Mr. Jones, we are aware that DOES faces a 
huge challenge.
    Mr. Jones. Yes.
    Ms. Norton. It is often hearings in the District of 
Columbia about the challenge you face in placing ordinary, 
average D.C. residents, no record, simply want a job. 
Apparently DOES has a huge problem with that. I, therefore, 
don't envy what you face when we dump on you some ex-offenders 
and say, Now go do the same for them.
    I understand that you have a backlog, but most of your 
testimony was about ex-offenders in general. How are you able 
to place? You say here that in the program now you have 724 
active ex-offenders, 420 are currently employed, others 
involved in work-related activities. Well, that is a lot of 
folks. How were you able? I mean, I am not sure that is your 
record among the ordinary, average people, so I must ask you 
where are these people employed?
    Mr. Jones. The good thing is that the District is very open 
to hiring residents of our community, and one of the things 
that we offer is transitional employment, which is subsidized 
employment, because we know----
    Ms. Norton. Excellent.
    Mr. Jones [continuing]. That it is very important that once 
a participant is in our program, that they are automatically 
working somewhere, because there is a statistic that shows that 
if they are not working after 90 or 180 days, they will usually 
go back to what they have done before.
    So many of our participants are in a transitional job, and 
many of our employers. The truth of the matter is that many 
times employers want someone who is going to show up on time, 
and definitely skill set is an issue, but part of the reason 
that they are in the training is so that they can gain those 
skills.
    This program, in my mind, is somewhat unique because we 
also offer occupational skills training. With occupational 
skills training, we are actually paying our participants while 
they are in training. Adult based ed and GED classes, our 
participants are able to work 3 days a week and go to school 2 
days a week and continue to be paid as if they are working, 
because we definitely understand that there is a connection 
between education and employment, and, more specifically, a 
career.
    We want to make sure that our participants have all that 
they need, and that is why the numbers are great, because, 
again, it is not just about unsubsidized employment; it is 
about transitional jobs, because again that is very important. 
And keeping them engaged in an activity, that is important.
    You mentioned earlier about those who may be incarcerated 
just sitting around, opposed to someone saying you have to be 
busy. That is what we do. We keep them engaged in an activity, 
which in my mind definitely reduces recidivism.
    Ms. Norton. I was going to ask you, Mr. Jones--you didn't 
lay it out in your testimony--it is very important what you 
just said how the city, itself, reaches out and becomes the 
employer of first resort, giving the ex-offender a record of 
employment, which is the most valuable thing you can possibly 
have. It sounds like a very good program. I must say I 
understand why this rate is as good as it is, and the fact that 
it is subsidized, it is worth it to the taxpayers of the 
District of Columbia to do exactly what you are doing.
    Indeed, I want to ask Mr. Holmes, you seemed to indicate 
some of your work, first of all, some of it you go into the 
prisons 3 to 6 months--I think it was you, Mr. Holmes--3 to 6 
months, and you spoke of subsidies. Does Goodwill subsidize in 
the transition some of these employees? For example, Mr. 
Robinson comes in. He said he told you all straight out he had 
been convicted of a violent felony, and yet you gave him a 
chance. What made you do that? Do you have to subsidize? And do 
you find is that the way you do it? How do you get somebody to 
take a man who spent a lot of his life in prison, comes out, 
and comes to you and says, I want a job?
    Mr. Holmes. Delegate Norton, I would love to take credit 
for his employment. He was employed by the Greater D.C. 
Goodwill.
    Ms. Norton. I am asking about Goodwill. I am not asking 
about Maryland in particular, I am just saying with a man like 
that whose record is long and deep, unlike the other young man 
who sat beside him, and I want to know if a man like that is 
employed who is being subsidized, because I know you don't go 
into the Federal prisons ahead of time, so I wonder how you are 
able to take a person like that who would normally have a tough 
time in the market and get him to the point now where he thinks 
he can go on and find a job outside of Goodwill Industries.
    Mr. Holmes. Our business preference is to help a person 
gain unsubsidized, full-time employment.
    Ms. Norton. But is he subsidized for the time he is in 
Goodwill?
    Mr. Holmes. If, in order to attach somebody to the labor 
market, we need to offer a subsidy, then that is a business 
practice we have. You said it very well earlier: 3, 6, 12 
months of regular employment, giving value to an employer, 
showing up on time, taking supervision, being part of a team 
makes you employable in other ways, and employers will start to 
overlook things in your background.
    Ms. Norton. You know, one of the things people have to do, 
I don't know if the Second Chance Act provides for subsidized 
employment, but that is one of the most valuable pieces of 
information I think that has come out of this. How do you get 
over it? Why should somebody hire a felon if standing next to 
him is somebody who doesn't have a felony record? What is the 
incentive?
    Mr. Chairman, if it doesn't----
    Mr. Davis of Illinois. All of those concepts are, indeed, a 
part of the bill.
    Ms. Norton. Thank you very much. That impresses me that 
might really work.
    I have to ask Mr. Torbett, we see that there was an 
incentive for Home Builders here because, as you say, this is 
tough work, and we have a soft generation, if you will forgive 
me. This is high-paying work, but people don't, as readily as 
their fathers and grandfathers, go into these high-paying jobs. 
You have to be out there in the heat of the day and you have to 
be out there when it is pretty cold. So first you have a 
shortage. But why should an ex-offender who certainly hasn't 
been exposed to those kind of rigors be--what accounts for your 
success?
    Mr. Torbett. Well, we expose them to those rigors of 
working in the industry because they work on work-based 
learning projects. We treat the training as if it were a job, 
so we prepare them to go to work. What makes it so----
    Ms. Norton. Are you also subsidized?
    Mr. Torbett. We are contracted to run our program, and our 
program is job training and job placement, and the job 
placement is matched up with the home building industry that 
desperately needs people right now. So in terms of the 
participant or the student, we would like for them to market 
themselves with assets. Yes, they have some deficits, but they 
certainly have some assets. One, they have completed an 
industry-sponsored program. They get a certificate that is 
recognized and validated by the home building industry.
    Ms. Norton. That, in itself, is very valuable.
    Mr. Torbett. It is an extremely important marketing tool 
for them to get a job. They come out of our programs with 
tools, a starter tool kit worth about $200 that they are able 
to use to go to work, get ready to go to work.
    We recognize that we do a very good job in construction 
training, but we also like to partner with other groups so 
there are some accompanying services to help that person become 
successful.
    Ms. Norton. Thank you very much.
    Finally, Mr. Austin, I am going to ask the chairman for 
another hearing. You raise very complicated issues that go to 
changes in statutory law that I think may or may not be 
required, but I would like to ask you about an idea that is 
apparently already underway, initiated by former Chief of 
Police Fullwood, who is now a parole commissioner on the U.S. 
Parole Board, so-called re-vocating people back.
    We have some horror stories out here about people who have 
been out for 5 years, and one dirty urine, maybe some marijuana 
or something, and so they are back after already showing they 
can hold a job, let us say, for a number of years. No credit 
for that time.
    Mr. Austin. Right.
    Ms. Norton. That is enough to break anybody's spirit.
    Mr. Austin. Right.
    Ms. Norton. What he is doing, apparently, is sanctioning 
people, putting sanctions on them so that if you meet these 
sanctions then you will not be re-vocated to prison, lose all 
your street time, which we are going to try to correct, but in 
effect that is what it is today.
    Do you know about that?
    Mr. Austin. Yes. Very familiar with this, and it is a step. 
Again, there are some new Commissioners at the Parole 
Commission that are really moving ahead on very progressive 
stuff.
    It is very clear, from a number of States, that we can do 
things differently with folks on these technical violations. 
One is what he is doing, which is to keep them out, but the 
other thing I want to emphasize is, again--and this is 
happening in a lot of States, but some States are getting away 
from this--you go back into the prison system and you start all 
over again almost on a technical violation. That technical 
violation can break, as you said, break the person. They lose 
their job, they lose their rental deposits, all that stuff they 
lose. A lot of States are giving very quick hits now--2 weeks, 
4 weeks. What we are finding through the research, that is just 
as effective, if not more effective, than bringing them in for 
several months.
    This is a very expensive, ineffective policy. I would dare 
say if you look at it carefully all the program money you want 
is in this practice. If you were to stop this practice, you 
would have more than enough program money. You could fund 
anything you want.
    So I take the position there is more than enough money 
being spent; we are just not spending it very smartly, from an 
evidence-based, research-based perspective.
    I would be glad to work with you and anyone else on 
crafting what that would look like, and it is stuff that other 
States are doing. D.C. is really behind the times on this.
    I am a D.C. resident, and I was shocked at looking at the 
length of stay of the D.C. prisoner. It is so far out of line 
with the rest of the country, it is horrific.
    Ms. Norton. And we think some of that can be corrected, but 
I must say your suggestion that--and I can understand it as an 
alternative. Let them take a hit for a week or two. I just 
think you disconnect. The employer sees that there has been, 
for whatever reason, even a minor reason, an infraction. It is 
one thing for somebody who has never had a record to have a 
minor infraction and to go away for a week or two.
    Mr. Austin. Right.
    Ms. Norton. But I just think that unless that employee has 
proved very valuable--and a lot of people are in fairly entry-
level jobs--that the sanction idea, you will do X, Y, and Z, as 
I think Parole Commissioner Fullwood has it, at least keeps 
this man saying, thank goodness I do not have to give up a job 
that was so hard for me to get.
    I am really wondering whether any incarceration should be 
the first thing you try.
    Mr. Austin. Let me just clarify. The way it is supposed to 
be done and the way it is done in other States, if you are low 
risk, which means you are unlikely to get involved in criminal 
conduct, you don't come back into the system. The high-risk 
person, the person that is likely to go out and commit a crime, 
you have to get their attention.
    I think the other side of this is that if you don't do 
something with that high-risk person and they go out and kill 
someone--look at Connecticut and you can see what has happened 
in Connecticut--it will bring the whole system down.
    Ms. Norton. Thank you, Mr. Austin. Those are not the ones. 
The ones that we are dealing with are so heartbreaking in D.C. 
First of all, most of these guys are low risk. You know, I 
don't know about other places, but most of our felons are drug-
related felons. Most of them are in there. They are low-level 
drug peddlers. They may even have done an armed robbery, but in 
that case there is a different case. But the countless 
heartbreaking stories of people who for a dirty urine then lose 
everything back in the can----
    Mr. Austin. I agree with what you are saying. I do not 
disagree at all.
    Ms. Norton. Thank you very much.
    Mr. Chairman, may I thank you, because I know that this has 
been a much longer hearing than you anticipated, but it has 
been extremely important.
    Mr. Davis of Illinois. Let me just ask a couple of 
questions.
    Ms. Norton. Please excuse me, because I am 10 minutes late 
for my 6 town meeting. Thank you.
    Mr. Davis of Illinois. All right. Thank you very much.
    Many of your experiences seem to be much better than 
experiences of people around the country relative to job 
placement and the ability of ex-offenders to actually gain 
employment. There are many places where it is virtually almost 
impossible because there are barriers that just simply exist. 
You can't hire at this location, you can't hire at this place. 
Many employers just simply have strict policies that simply say 
we don't hire people with felony convictions.
    I am trying to figure out what is it about the environment 
that is providing opportunity for the kind of success that I am 
hearing that sounds much better than what I hear in most places 
throughout the country, especially in most large urban cities 
where the biggest part of the problem really exists.
    So what I am trying to find out: is it because perhaps 
there has been so much activity or that the environment is a 
little different? For example, in my State just a couple of 
years ago there were 59 job titles that a person with a felony 
conviction could not hold that were licensed by the State, such 
as cutting hair or painting nails or you couldn't work in any 
facility at all where health care was being provided, not only 
in it, but you couldn't work on the grounds. Of course, you 
couldn't be any kind of professional. You couldn't be a doctor 
or lawyer or nurse or school teacher or you couldn't be a 
plumber. You couldn't get a license to be a plumber.
    What I am hearing sounds fairly decent in terms of job 
placement.
    Mr. Jones. Chairman Davis, if I can speak, I think for us 
in the District it is hard. I mean, it is hard. There is 
nothing easy. Again, as I mentioned, one of the things that has 
been very helpful for us is that the subsidized employment has 
been very helpful and the District has been really good about 
assisting those ex-offenders find employment in reference to 
public works and some of the agencies that we work with have a 
pretty good staff that actually go out, and not just in D.C. 
The truth of the matter is that for all the Federal Government 
agencies it is very hard to place people in our program, so we 
are actually out in Maryland and Virginia in maintenance 
working with apartment complexes, and again the subsidized 
employment is very, very helpful to us because many of the 
employers decide to give us an opportunity.
    I think with Project Empowerment and the program from the 
District's point of view, job coaches also are very important, 
and those are the support that all of our participants receive, 
and that is someone actually going on their work site. 
Sometimes you get employers that would say, You know something? 
I do a lot better with your participant more so than someone 
just walking off the street.
    I think it is about support. Again, we definitely recognize 
it is not easy, and for us it is really just trying to engage 
our participants in activities such as GED prep, adult basic 
ed, to give them hope and opportunity, because we recognize 
that is important. Just a little bit of hope will take you a 
long way, and that has been helpful for us.
    Again, it isn't easy and we continue to work hard and try 
to knock down some of those walls when it comes to our 
participants.
    Mr. Davis of Illinois. Is much of the subsidy local, or is 
the subsidy basically Federal subsidies that come from programs 
from Department of Labor or Housing and Urban Development?
    Mr. Jones. Well, you know, for us, the Department of 
Employment Services, when there was the welfare to work program 
it was actually Federal. The District, our funding is actually 
local.
    Mr. Davis of Illinois. But there is some local subsidies 
also?
    Mr. Jones. Yes.
    Mr. Jackson. Yes, Mr. Chairman, and I think the other thing 
is that what we have here is tremendous collaboration that we 
have seen emerge over the years between not just DOES and not 
just CSOSA, but our whole educational continuum, and what we 
try to do is not simply work with the client while he or she is 
incarcerated, but we want to work with them when they reenter 
back into society, and continue to be that buffer to provide 
them with continuous support.
    What we have also found is that even after they are 
gainfully employed a lot of them are coming back to real 
challenging experiences, and so you have to have what I call 
that safety net of continuing support services where they can 
reach out and gain support.
    So I think part of what we have here is two things. One is 
that we have had truly a robust economic market in this region 
here, which has led to a lot of job growth over the last 10 
years. We are averaging about 20,000 new jobs a year, and so 
what we have been very aggressively doing is going after 
employers who are looking at entry-level opportunities. As we 
are going through doing the assessment skill training and the 
occupational skill training, we are also providing them with a 
lot of tailored kind of training for specific industries that 
they have expressed an interest in working with CSOSA and 
working with DOES and our other partners.
    We have had some success in placing some of our hard-to-
employ residents who are returning back to the city. It is not 
an easy job. It is one that we have to go after every day 
continuously.
    The good thing is that we have now pre-screened some 
employers who have at least given us some verbal commitments to 
hire some of our returning offenders if they meet a certain 
threshold of qualifications.
    Mr. Quander. If I may, Mr. Chairman, the issue that you 
identify as legislation that was barring returning offenders 
from certain professions, we identified that early on as a 
barrier, and, as other members of this panel have suggested, we 
worked with a number of partners, and one of those partners 
that we worked with was the City Council of the District of 
Columbia. We asked them to take a look at that legislation and, 
in fact, they did, and they modified the language and removed a 
number of the barriers for certain positions such as barbering 
and beauticians and other sorts of positions, just as you have 
indicated.
    One of the other areas that we have really worked with our 
partners in the Department of Motor Vehicles is we take for 
granted the ability of returning offenders to have any type of 
identification. They don't have any, and without that 
identification you are not going to get a job. So we have been 
able to work with the Department of Motor Vehicles so that they 
can get a non-driver's identification, and if they apply for it 
within 30 days the fee is waived.
    We are doing some of the verification that the Department 
needs as far as name, address, Social Security number, because 
oftentimes they lose their papers.
    The other thing that Mr. Jones mentioned is skill sets. Our 
offenders can get a job; the question is: can they maintain it 
and then buildupon it? We need to utilize services such as job 
coaches and others to enhance our ability to do that.
    The fourth thing that leads us back to our premise is that 
our guys need to get as much education, job skills, other 
things that will enhance their abilities to get and maintain a 
job while they are sitting in a prison.
    Mr. Davis of Illinois. Mr. Torbett.
    Mr. Torbett. Mr. Chairman, working for the home building 
industry, we have the luxury of working with an industry that 
may have traditionally been more accepting of the offender 
populations, so we have an in-road with the employers who are 
members of our association, and that helps us out. Plus, they 
know about what we do, so they support us. Workforce 
development is our mission, and finding a skilled labor force 
has been one of the top business priorities over the past 
several years.
    From a programmatic standpoint, to concur with Mr. Jones 
and the last gentleman who spoke, we hire professional staff 
who know what job development and job placement is all about. 
Essentially what they are is sales people. You have to instill 
in them that the product that they are selling are people with 
skills and abilities and assets that can help an employer make 
money.
    So it is having dedicated, committed professional staff 
with an industry that needs people is I guess our secret to our 
success.
    Mr. Davis of Illinois. Well, I thank you very much. I was 
very interested in some of the comments that Mr. Austin had 
made relative to the length of stay and time that I think 
oftentimes is wasted, especially after individuals have been 
incarcerated for a long period of time and have also reached 
certain levels of maturation that in all probability reduces 
them in terms of any kind of risk. Yet, we are continuing to 
hold them. I think, in terms of reform, that, too, is one of 
the areas that we seriously need to look at.
    Let me just thank all of you for the patience that you have 
displayed this afternoon. We have been here for a long time, 
but I think the information that you have shared, even though 
we were talking principally about the District of Columbia, in 
a sense it mirrors the entire country, and so we were talking 
about problems that affect in a serious way the whole country, 
as well as our corrections system, and even beyond that, our 
criminal justice system, and even beyond that our sense of what 
is justice in our country.
    I appreciate you very much.
    While I am at it, let me also thank our staff, who have 
labored long and hard to put together the information that is 
needed and have caused this hearing to take place.
    I thank all of you for coming. This meeting is adjourned.
    [Whereupon, at 6:25 p.m, the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
